<html>
<title> - [H.A.S.C. No. 114-106] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-106]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

               GROUND FORCE MODERNIZATION BUDGET REQUEST

                               __________

                              HEARING HELD
                             MARCH 2, 2016

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
 
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-650                         WASHINGTON : 2017
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 





















              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Walsh, LtGen Robert S., USMC, Commanding General, Marine Corps 
  Combat Development Command, Deputy Commandant, Combat 
  Development and Integration; BGen Joseph Shrader, USMC, 
  Commanding General, Marine Corps Systems Command; and William 
  E. Taylor, Program Executive Officer Land Systems, U.S. Marine 
  Corps..........................................................     3
Williamson, LTG Michael E., USA, Military Deputy to the Assistant 
  Secretary of the Army (Acquisition, Logistics and Technology); 
  and LTG John M. Murray, USA, Deputy Chief of Staff, G-8........     1

                                APPENDIX

Prepared Statements:

    Tsongas, Hon. Niki, a Representative from Massachusetts, 
      Subcommittee on Tactical Air and Land Forces...............    33
    Turner, Hon. Michael R., a Representative from Ohio, 
      Chairman, Subcommittee on Tactical Air and Land Forces.....    31
    Walsh, LtGen Robert S., joint with BGen Joseph Shrader and 
      William E. Taylor..........................................    48
    Williamson, LTG Michael E., joint with LTG John M. Murray....    34

Documents Submitted for the Record:

    Cover letter and list of U.S. Marine Corps unfunded 
      priorities.................................................    61

Witness Responses to Questions Asked During the Hearing:

    Mr. MacArthur................................................    68
    Ms. McSally..................................................    67
    Mr. Takai....................................................    67
    Mr. Turner...................................................    67

Questions Submitted by Members Post Hearing:

    Mr. Cook.....................................................    78
    Mr. Gibson...................................................    75
    Mr. Turner...................................................    71
    Mrs. Walorski................................................    80
    
    
    
    
    
    
               GROUND FORCE MODERNIZATION BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                          Washington, DC, Wednesday, March 2, 2016.
    The subcommittee met, pursuant to call, at 1:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Mr. Turner. We will come to order.
    General Williamson, General Murray, General Walsh, General 
Shrader, Mr. William Taylor, we have agreed that we are all 
going to put our statements into the record so we can go 
directly to you. I understand that we are going to be having--
are the votes called or they have been?
    Not yet. So it is our hope that we can get through all of 
the opening statements and perhaps a few questions before we 
have to adjourn for votes.
    I believe we are turning to General Williamson first.
    [The prepared statements of Mr. Turner and Ms. Tsongas can 
be found in the Appendix beginning on page 31.]

STATEMENT OF LTG MICHAEL E. WILLIAMSON, USA, MILITARY DEPUTY TO 
THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND 
   TECHNOLOGY); AND LTG JOHN M. MURRAY, USA, DEPUTY CHIEF OF 
                           STAFF, G-8

    General Williamson. Chairman Turner, Ranking Member 
Tsongas, and distinguished members of the Subcommittee on 
Tactical Air and Land Forces, thank you for the invitation to 
discuss the Army's fiscal year 2017 ground force modernization 
programs, and for this opportunity to appear with our Navy and 
Marine Corps counterparts.
    We are proud to work with them in a number of critical 
areas, including the Joint Light Tactical Vehicle [JLTV] 
program. With me today is Lieutenant General Mike Murray, the 
Army Deputy Chief of Staff, G-8. Mr. Chairman, I thank you for 
making our written statement a part of the record for today's 
hearing.
    Mr. Chairman, the Army's number one priority is readiness. 
This means that we can no longer equip and sustain the entire 
force with the most modern equipment. This is a fact based on 
our current fiscal situation. Still the Army will focus its 
investments on supporting elements of readiness, which include 
key modernization programs. Equipping is and will always remain 
a critical component of readiness.
    Our equipment modernization strategy is focused on five 
capability areas. First, aviation, which I know we will not 
discuss today, but remains a priority for the Army. Second, a 
robust network. That network has to be protected against 
cyberattacks.
    Key investments in this area include the Warfighter 
Information Network-Tactical [WIN-T] that provides us with 
networking on the move; assured position, navigation, and 
timing for trusted information while operating in conditions 
that may impede or deny access to the Global Positioning 
System; communication security; and offensive and defensive 
cyber operations to protect our networks in cyberspace.
    Third, integrated air and missile defense to defeat a large 
portfolio of threats that range from small UAVs [unmanned 
aerial vehicles], cruise missiles, ballistic missiles, mortars, 
and even threat aircraft. Key investments in this area include 
air and missile defense battle command systems, an indirect 
fire protection capability, and modernization of the Patriot 
system.
    Fourth, our combat vehicle modernization provides future 
Army maneuver forces with increased mobility, survivability, 
and lethality. Specifically, the Army is investing in a ground 
mobility vehicle, mobile protective firepower, Stryker 
lethality upgrades, and the armored multi-purpose vehicle.
    We are also incrementally modifying and modernizing 
existing systems to increase capabilities and to extend service 
life with improvements to the Abrams, the Bradley, and the 
Paladin systems.
    Finally, the Army will continue to address emerging threats 
by investing in mature technologies with the greatest potential 
for future use. These areas include the Modular Active 
Protection System, electronic warfare, and combat vehicle 
prototyping.
    We continue to protect our science and technology [S&T] 
funding so that the next generation of breakthrough 
technologies can be rapidly applied to our existing or our new 
equipment designs.
    While other services man equipment, the Army equips 
soldiers. Even with our modernization budget being at historic 
lows, our equipping mission remains essential. We cannot put 
our soldiers at risk by not providing them with the right 
equipment at the right time and the right place to accomplish 
their assigned missions.
    Mr. Chairman and distinguished members of this 
subcommittee, we greatly appreciate and thank you for your 
steadfast and strong support to the outstanding men and women 
of the United States Army, our Army civilians, and our Army 
families.
    This concludes my opening remarks, Mr. Chairman. We look 
forward to your questions.
    [The joint prepared statement of General Williamson and 
General Murray can be found in the Appendix on page 34.]
    Mr. Turner. Thank you.
    General Walsh.

 STATEMENT OF LTGEN ROBERT S. WALSH, USMC, COMMANDING GENERAL, 
  MARINE CORPS COMBAT DEVELOPMENT COMMAND, DEPUTY COMMANDANT, 
COMBAT DEVELOPMENT AND INTEGRATION; BGEN JOSEPH SHRADER, USMC, 
 COMMANDING GENERAL, MARINE CORPS SYSTEMS COMMAND; AND WILLIAM 
E. TAYLOR, PROGRAM EXECUTIVE OFFICER LAND SYSTEMS, U.S. MARINE 
                             CORPS

    General Walsh. Thank you, Chairman Turner and Ranking 
Member Sanchez--I don't think she is here--and distinguished 
members of the subcommittee, for the opportunity to testify 
today before you on the Marine Corps ground modernization 
portfolio.
    Joining me today is Brigadier General Joe Shrader, 
Commander of Marine Corps System Command, and also Mr. Bill 
Taylor, our program executive officer for Marine Corps Land 
Systems Command. I would also like to recognize our Army 
counterparts, Lieutenant Generals Williamson and Murray, who I 
work very closely with.
    It is essential to comment on our shared commitment on our 
programs together, and I would also like to comment on our 
reinvigoration of our Marine Corps Board, which I think will 
help the subcommittee in the future to ensure that our two 
services remain closely aligned on our programs.
    The Marine Corps faces a challenging future operating 
environment with the Army in which peer and near-peer 
adversaries approach parity with some key capabilities. Anti-
access and area denial capabilities will proliferate, becoming 
cheaper, more lethal, and harder to target. Hybrid adversaries 
with masked signatures will fight in distributed fashion in 
densely populated urban littorals.
    The U.S. satellite-based capabilities may be degraded or 
denied. Cyber threats will target the digital networks that are 
essential to the way we currently fight. And adversaries will 
leverage advanced commercial off-the-shelf technologies to out-
cycle our acquisition process.
    Information warfare will exploit global communications and 
social media, and we will face all of these challenges in an 
era of reduced manpower and fiscal austerity.
    Our ground vehicle modernization strategy is to 
sequentially modernize priority capabilities, reduce equipment 
inventories wherever possible, and judicially sustain remaining 
equipment. The future security environment requires a robust 
capability to operate from the sea and maneuver ashore to the 
positions of advantage. The Amphibious Combat Vehicle program 
enables us to do so. It is the Marine Corps highest ground 
modernization priority and consists of two increments.
    This program when coupled with improvements to our existing 
fleet of assault amphibians, generates a complementary 
capability, set of capabilities, to meet the general support 
lift capability and capacity requirements of our ground combat 
element.
    The second highest priority within our portfolio remains 
replacement of our HMMWV [high mobility multipurpose wheeled 
vehicle] fleet that is most at risk, those trucks that perform 
a combat function and are typically exposed to enemy fires.
    In partnership with the Army, the Marine Corps has 
sequenced in the JLTV program to ensure affordability of the 
entire ground combat tactical vehicle portfolio, while 
replacing 5,500 units of the legacy HMMWV fleet with the modern 
tactical trucks prior to fielding the first increment of our 
Amphibious Combat Vehicle. These core Marine Corps 
modernization efforts have been designed in a manner to ensure 
their affordability.
    Finally, the Ground/Air Task Oriented Radar that combines 
five current programs will enhance our ability to command and 
control across the Marine air-ground task force. This solution 
allows us to support an air defense, air surveillance, counter-
targeting, counter-fire, air traffic control missions through 
simple software swaps on a single piece of hardware, a much 
more expeditionary solution than numerous radar solutions we 
currently have.
    It will increase our sensing and sharing effectiveness 
across the range of military operations, supporting missions in 
high-end conflict, hybrid warfare, and low-intensity conflict, 
and thus enabling the command and control of our forces.
    Thank you again for this opportunity. And I look forward to 
your questions.
    [The joint prepared statement of General Walsh, General 
Shrader, and Mr. Taylor can be found in the Appendix on page 
48.]
    Mr. Turner. Thank you both. We have been informed, by the 
way, that votes will not be occurring so we are going to be 
able to slow our pace down a bit.
    As you are all aware, the budget debate is gripping Capitol 
Hill currently. The budget proposed by the President that was 
expected to come in concert with our 2-year budget deal, was 
expected to have a number of 574 as the base number.
    It has fallen $18 billion short of that, and Congress is 
dutifully working to restore that $18 billion in the base 
budget number. However, it is my understanding that DOD 
[Department of Defense] has already been proceeding along the 
lines of the President's proposed budget, which is, of course, 
includes the $18 billion shortfall.
    It is my understanding, General Murray, as a result of our 
meeting yesterday that the Army's share of that shortfall was 
approximately $3.1 billion. Could you please provide the 
subcommittee with more details as to which programs and 
capabilities were impacted by this reduced budget request? 
Since Congress is diligently working to put those dollars back 
it would aid us in our ability to understand what is at risk.
    General Murray. Yes, sir. Thank you. So we went back and 
did some homework based upon our conversation yesterday, and it 
is actually closer to $3.4 billion. And the easiest way to 
explain that because as you build a program and we got the BBA 
[Bipartisan Budget Act] about the early November timeframe, we 
were weeks away from dropping the 2017 budget to OSD [Office of 
the Secretary of Defense]. So we had a very short time to work 
on it.
    But it is $3.4 billion and that is based upon what we said 
we needed to meet the requirements we have been given versus 
what we got under the BBA 2015 agreement for 2017. It covers a 
lot of categories. It covers military personnel account, which 
is a very small amount. It covers operations and maintenance, 
training. It covers research and development and acquisition 
[RDA] accounts, and it covers facilities accounts.
    Specific to your question, within the RDA account it was 
about $570,000--I am sorry, $570 million and it was primarily 
where we took that cut was in aircraft modernization.
    So we went back and took Apaches, took a cut in Apache 
modernization. We took a cut in Black Hawk modernization, and 
we took a small cut in CH-47 modernization. Kept everything in 
compliance with the multiyear contracts, but basically brought 
aircraft modernization production to the floor to account for 
that cut. But $3.4 [billion] is really the answer to your 
question, sir.
    Mr. Turner. Thank you. That helps us again in the debate 
and advocacy to try to restore those dollars with an 
understanding of what is at risk.
    General Murray, I also understand that the Army wants to 
redirect funding within ERI [European Reassurance Initiative] 
from operation and maintenance to procurement in order to begin 
the modernization of Abrams tanks and Bradley fighting vehicles 
to better deter against threats from Russian aggression. Can 
you please explain this plan and do you require any specific 
authorities from the Armed Services Committee?
    General Murray. Sir, we are going to work with Congress, 
obviously, and it is a reprogramming action of the dollars that 
were given to us for the European Reassurance Initiative. Once 
again, we came up with a plan and this was a late-breaking in 
the program development last year. We came up with a plan to 
put unmodernized equipment as part of the equipment bill in 
Europe with the prepositioned stocks.
    We went back and looked at that plan after we had some more 
time to do it and decided that we would be better off putting 
modernized equipment. So the original plan was to take 
unmodernized equipment, bring it to 1020 standards, and then 
send it over as the first installment of what will eventually 
become a division minus set in terms of prepositioned stocks.
    In order to make modern equipment, we now have a plan to 
use what is already over there in the European activity set, 
bring that back to APS, the Army Prepositioned Stocks, use 
brigades to rotate into Europe on a heel-to-toe rotation, which 
we have the funding for in the ERI OCO [Overseas Contingency 
Operations] account, and then take the equipment we were going 
to send and use that to go to the next generation of tank and 
Bradley. So the Abrams A-3 and the Bradley V-4 to kind of jump-
start that production.
    So it is about $250 [million], $245 million we just need to 
reprogram RDA OMA [Operations and Maintenance, Army], just 
change that over. So it is not an ask for more money than what 
is already in there. It is just a reprogramming action, and we 
would appreciate the help with that.
    Mr. Turner. For my last question, General Williamson, I am 
assuming the Army's planning to start an APS [Active Protection 
Systems] test and evaluation program that would integrate 
technologically mature systems on Abrams, Bradleys, and 
Strykers.
    Could you please provide us with an update on this program 
and comments on its schedule? And is this program fully funded 
in fiscal year 2017?
    General Williamson. Sir, thank you for the question. So the 
Active Protection System program, we are actually taking a dual 
path. So we have an established program that is called the 
Modular Active Protection System [MAPS]. It really gives us an 
approach that allows us to look at a soft kill looking at 
obscurance, looking at electronics in order to defeat threat 
missiles targeted at our systems. And then it continues to 
graduate into the hard kill, that is kinetic, being able to 
shoot down missiles fired at our equipment.
    The intent of the MAPS program, though, is to develop a 
very modular system that we can apply to the wide range of 
combat vehicles that we have in store. That is a 5-year 
program, sir, which we started last year from an S&T 
standpoint. And so it will be a couple of years before we are 
comfortable with that system being able to be applied to our 
combat vehicles.
    So in the interim, the second part of our strategy is to 
look at existing active protection systems, both domestically 
produced and even those that our allies have. We are now 
bringing those in this year and characterizing those on our 
systems to understand the performance, understand the 
integration effort, so that we can have a capability a lot 
quicker than the 5-year timeframe. So our goal is to have 
capability within 2 years.
    Mr. Turner. Excellent. Well, I think the members of the 
committee are all well aware that Israel has already in Israel 
deployed systems that are at least a good starting point for 
our discussion. We look forward to your evaluation----
    General Williamson. Yes, sir.
    Mr. Turner [continuing]. Of those systems.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you all for 
being here. As I have served on the Armed Services Committee it 
has been my experience that absent oversight from Congress the 
services neglect to design and field equipment with specific 
requirements for women.
    We have seen some progress in the area of body armor, 
important progress. We know that in the area of shoes that are 
issued to our service men and women there hasn't been a lot of 
thought about, you know, what a woman's foot might need in 
these challenging--given the demands on what she needs to to.
    And so I think with the Department of Defense having 
recently opened all combat-related positions to women in the 
military that meet the required standards, a move that I 
certainly support, I would really like to ask that in the area 
of the newly opened positions which include infantry positions 
previously closed to women, how are the Army and Marines 
adapting their infantry equipment requirements to account for 
these changes in policy?
    For example, will the next generation of soldier or marine 
protective equipment, like body armor, be provided in a range 
of sizes, shapes, and configurations to account for more women 
in infantry units?
    General Williamson. So ma'am, let me start from an Army 
perspective. So this is one of the things we have made 
considerable progress in in terms of our uniforms and also in 
our protective equipment. So I would start by telling you that 
we have added eight additional sizes based on a better 
understanding of the stature. And so there is a level of 
complexity here that it is not just being smaller. It is 
proportions. And so that is why there are so many additional 
sizes.
    And as anybody who has worn a piece of body armor knows 
that it is inconvenient enough without being able to 
appropriately size it. And so in the design of our new 
protective equipment we have worked very hard as you look at 
both the torso, the hard armor protection, the extremities with 
the soft armor and the sizing so that we can fit both women and 
smaller male soldiers appropriately.
    Ms. Tsongas. General Walsh.
    General Murray. Ma'am, if I could just real quickly to add 
to what General Williamson has said? I am sorry. So you 
mentioned infantry specifically, which is near and dear to my 
heart, but so it is not only the body armor that they are 
wearing. It is also the equipment they are carrying in terms 
of--and it is not a gender thing but it is lightening of the 
load.
    So I mean, there is a very conscientious effort and we are 
making some pretty good progress on lightening the launch unit 
for the Javelin, on lightening tripods for the machine guns, on 
lightening the machine guns themselves.
    And then something that I am very excited about we have 
been talking about for a long time, we are making some pretty 
good progress on is a, basically a robot that follows the squad 
that could take anywhere from 3 to 1,200 pounds off of an 
infantry squad, be it whatever gender it is and carries the 
load for them and then remote. And so they are not carrying all 
that equipment. And also gives them the ability to lessen the 
load on batteries as well because it serves as a battery 
charger.
    So there are efforts. You know, like I said, it is not 
gender-specific, but there are efforts going on in a lot of 
different areas to try to lighten the load we are asking our 
soldiers to carry.
    Ms. Tsongas. Well, we have certainly seen a lot of evidence 
that the load of the body armor even, while it was very 
protective, caused long-term damage and costs that we are going 
to be dealing with for many years to come. So the effort to 
lighten the load is important across all areas of the 
equipment.
    General Walsh. Congresswoman, very close to what General 
Murray and General Williamson said on our part is start off 
with the lightening the load piece. It is a huge piece that we 
are looking at with the amount of technology, as you are aware 
of, that we are putting on our marines to be able to operate in 
a distributed manner. The weight increases so we have been very 
focused on continuing to try to lighten that load.
    And just as we talked about robotic capabilities, we are 
looking at we just did a limited objective experiment where we 
looked at taking infantry company and how they would use 
infantry transportation vehicles, small vehicles, ACV 
[Amphibious Combat Vehicle] type that would be able to carry 
some of the loads with them to be able to lighten that load so 
they are able to be more mobile in a foot-mobile, because the 
Marine Corps is a very foot-mobile organization and we have to 
travel that way.
    As far as the female piece of it specifically, we are 
continuing to look at our policies and the gear that we have 
got. We originally had a policy where we had the gear we were 
buying for our protection systems was based on a low end of 5 
percent of the Marines, Marines gender neutral to 95 percent. 
That was the percentage that we were buying the gear to.
    Well, since then we have looked at that and right now I 
have got a policy change that I have got to change our 
requirements document to take that down to 2 percent of the 
lowest of the females and take that all the way up to 98 
percent of the males because we were finding it was when we 
were at that 5 percent of buying gear just for 5 percent of the 
total Marine Corps that a lot of the females were falling below 
that and the gear wasn't fitting them accordingly.
    Just as General Williamson said too, we also have looked at 
the size of the gear and we have added another short version of 
our vests, which carry a lot of our armor protection.
    Ms. Tsongas. And how are you all doing in fielding the new 
body armor that has been developed for women, especially the 
Army, but I am also curious to hear from you, General Walsh.
    General Murray. Yes, ma'am. So the procurement objective, 
and we may not get there, is about 72,000 sets and 5,500 have 
been fielded. And we field to deploying soldiers male or female 
so it becomes a cascade. So as female soldiers and male 
soldiers deploy, the form-fitted, you know, new really IOTV 
[Improved Outer Tactical Vest], the vest, is fielded, so 5,500 
fielded.
    The acquisition objective was somewhere around 7,200, but 
as you know, on the body armor it is very short acquisition 
cycles because we want to take advantage of the newest 
technology as it becomes available.
    General Walsh. I will just start by saying that we have 
added about 3,800 of those protective vests. And I will just 
turn it over to General Shrader for any details he would like 
to add.
    General Shrader. Congresswoman, thank you for the question. 
So General Walsh talked about we dropped below the 5 percent 
down into the 2 percent. What led us there was an 
anthropometric fit study that we did.
    We started a number of years ago and the timing of it it 
was fortuitous that it ended along with this decision that was 
made. Led us to look at those extra-small sizes, the stature 
sizes and led us to purchase, like General Walsh said, the 
3,800 extra sizes or extra sets that were down in that 2 
percentile range, extra-small sizes. So we are fielding those 
now.
    I would also mention that we are looking at how the load-
bearing system integrates onto the smaller stature as well. 
What are the second- and third-order effects with regard to 
injuries and those types of issues?
    So we have an organization within my command called the 
Marine Expeditionary Rifle Squad, or MERS, that exists in a 
place called Gruntworks where we have an exercise physiologist 
on staff that examines all of this data that we pull from the 
schoolhouses to look at the injuries that may be occurring and 
see how that can inform how we change any of our body armor and 
any of our load-bearing systems.
    We just fielded a new pack in the Marine Corps and we are 
now looking at how does it ride on the body? Does it need to 
ride higher on smaller stature marines instead of on the hips, 
and those types of issues. So we are full steam ahead, ma'am, 
looking at those smaller sets.
    Ms. Tsongas. Well, one of the more alarming things I 
learned after you all first began to develop--the Army first 
began to develop body armor for women, was I learned that in 
the previous armor that they were wearing, the male version, 
that often it compromised a woman's ability to lift her arm 
appropriately to fire or whatever she needed to do.
    So there are real risks to not moving ahead in that very 
expeditious way, especially given the opening of all these 
combat positions to women. So I thank you.
    I yield back.
    Mr. Turner. Excellent question. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you for being here and for all that you 
do. General Murray, in the battle space whether air, land, or 
sea, it is always the tangible items that are given the most 
interest from the Department of Defense, Congress, and the 
general public because they are the things that we can reach 
out and touch and physically see.
    However sometimes it is the invisible items, mainly C4ISR 
[command, control, communications, computers, intelligence, 
surveillance, and reconnaissance] capabilities and resiliency 
that determine success in the modern battle space. So along 
those lines can you update the committee on the tactical radio 
programs, specifically HMS [Handheld, Manpack, and Small-Form 
Fit], and what the Army is doing to move this program along as 
expeditiously as possible?
    General Murray. Sir, I will kind of cover it very broadly 
and then General Williamson has got much more depth into it, 
and I will pass it over to General Williamson.
    And so I mean there is within our network, which General 
Williamson has said was, you know, the number two priority in 
terms of the 2017 budget. And the overall umbrella would be our 
WIN-T program. There are several layers we are talking about.
    The HMS manpack radio is absolutely a key component within 
what we are trying to do in terms of pushing command or on-the-
move capability down to multiple echelons as well as connecting 
lower and upper mid-tier echelons of command.
    So connecting companies up to battalion, to brigade and 
then that on-the-move capability. And basically HMS is a 
critical capability within that, and then General Williamson 
will pick it up from there.
    General Williamson. So sir, really appreciate the question. 
The radio program is something that I have been invested in for 
a number of years. So I am happy to report that the HMS 
handheld radio, so we just had a contract award on the 26th of 
February. And the reason I am pleased with that is that there 
were multiple vendors who are now qualified, which means that 
we will have competition that will allow us to get the best 
price for the taxpayer and give the best capability to 
soldiers.
    And so when we talk about the HMS program it really 
represents two pieces. One, a manpack radio that is two 
channels that allows us to have satellite communications as 
well as direct line of sight. That program we have fielded 
roughly about 5,000 of those radios and we are going in now for 
a lighter version.
    This gets to Ms. Tsongas' question is how do we lighten the 
load? So one of the things that we are doing with that radio is 
how do we make that smaller and increase range?
    The radio contract that we just awarded last week will be 
for a smaller handheld radio that is used at the squad level. 
And we believe that will go through a series of tests with the 
three vendors and we will down-select. I can't tell you today 
whether that is one or two. My goal is always to maintain 
competition. So I think both programs are moving forward very 
steadily, sir.
    Mr. LoBiondo. Okay. Thank you very much.
    I yield back.
    Mr. Turner. Mr. Cook.
    Mr. Cook. Sleeping on the switch here. I had a couple of 
questions on standardization of ammo. When I am thinking about 
the Stryker and I am thinking about the Bradley and I am 
thinking about the LAV [Light Armored Vehicle] and, you know, I 
am not as smart as anybody in this room here. I am just a dumb 
grunt. But why do we have, you know, 25 mm for one and 30 [mm] 
for the other?
    I am a big fan of the Stryker. I like going up to the 30 
mm. But I have also heard some rumors that some of the troops--
I have got Fort Irwin--that they are grumbling a little bit 
about the 25 mm, and even in the Marine Corps. Whether it is 
capable to standardize that equipment or whether we have to 
retool all those vehicles?
    If you could kind of comment on that because I am going to 
ask the same question about why the Marine Corps has its own 
5.56 and the Army has its own 5.56.
    And when we go into these budget wars where we are supposed 
to have our act together in terms of efficiency and 
effectiveness and we are trying to make the argument, and you 
have got a lot of people here that are, you know, quite 
frankly, hawks. And we are going to be fighting other people 
that are going to want to cut your budgets. These are answers 
that I think are imperative to some of the discussions that we 
have.
    So is that too much of a grenade?
    General Murray. No, sir. So I mean, you are absolutely 
correct. So the 30 mm is the current weapons system. It is not 
done yet as you know. We are still upgrading the Strykers, 81 
per BCT [brigade combat team] starting with the regiment in 
Germany. And the 25, I know of, and General Williamson can talk 
in more detail, I know of no plans to try to go back in and 
reengineer the Bradley for a 30 mm.
    A lot of that may be the integration piece of it is just 
too difficult and as spending a lot of time in a Bradley 
myself, I personally think the 25 with the right ammo is a very 
effective weapon system.
    The 30 and Bradleys normally are around tanks so I mean 
that was part of the discussion in terms of 30 mm versus a 
smaller gun for the Strykers. Strykers are not necessarily 
throw--so there is a lot that went into it, but--and I will 
turn it over to General Williamson--but 30 on the Stryker, 25 
on the Bradley is where we intend to stay.
    General Williamson. So sir, just two points. So I do 
appreciate the concern about multiple weapons systems and then 
the associated tail that comes with multiple variations of 
ammunition. But the start point is the investment that would be 
required to go back and touch all of the 25 mms, which is a 
very capable weapon system. That is a significant investment.
    I have spent time with our ammunition and our ballistics 
folks, and I would tell you that the 30 mm that gets added to 
the Stryker gives it an incredible capability. I mean, and part 
of the motivation there is it is on two fronts. So one, it 
gives you a capability to be able to address lightly armored, 
lightly skinned vehicles, but that weapon also gives you a 
tremendous capability in engaging enemy in the open and at 
range.
    And so we believe it adds a tremendous amount of capability 
to that Stryker force, especially as you look at our desire to 
provide additional capabilities starting in Europe. And that is 
the direction that we have headed. There will be a separate 
decision that will be made by the leadership of the Army that 
talks about how far you go with that Stryker lethality package 
and the 30 mm.
    General Walsh. Congressman, I think the first thing I would 
say is whenever we can, our intent is to buy with the Army in 
the same program. So everything going forward that is what we 
try to look at, and I will look forward to trying to answer 
that 5.56 question later when you bring that forward.
    On the LAV specifically, as we look at our priorities 
between we have got first priority really is affordability on 
the ACV and the JLTV, trying to get those programs forward. 
Trying to give more firepower to our LAV program along with 
keeping them around longer, we focused really on their 
obsolescence and keeping them going from an obsolescence 
standpoint, but also the LAV anti-tank program. That is really 
our focus right now has been to up-gun them with this new anti-
tank capability.
    I think the same thing that General Murray had said it to 
try to up-gun and take an older vehicle like this at this point 
in time we are trying to bring in new programs and try to bring 
in a higher caliber capability in. It is just not an 
affordability standpoint to where we can afford to go right 
now.
    Mr. Cook. I yield back.
    Mr. Turner. Turn to our next questions. I want to just read 
the list so people know where they are on the list currently 
for asking questions. We have got Mr. Takai, MacArthur, Graham, 
Gibson, Walz, McSally, Moulton, Walorski, and then Duckworth. 
That is the current order.
    Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman. Aloha, generals. I am 
concerned about the cycle we go through in upgrading and 
modernizing the technologies that our warfighters employ in 
combat on the ground. As you know, we have found ourselves in 
situations in the past where we had deployed troops without the 
proper equipment because of our modernization cycles that have 
been underfunded.
    Today I want to ask about a couple of programs, mainly on 
the ground system acquisition and communication. First General 
Williamson, it appears the Army has issued an unfinanced 
requirement list which seeks 16 additional M88A2 improved 
recovery vehicles. Will these be the older A1 vehicles that are 
improved to create the A2 versions? And how many M88A1 
Hercules, the older variant, will remain in the Army's 
inventory after completion of the current program funding?
    General Williamson. So sir, I will have to come back and 
tell you what the total number is, but the answer to your first 
question is that it is an upgrade to the existing 88s.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Takai. Okay. Yes, please get back to us on the other 
question.
    And then General Walsh, the Networking-on-the-Move [NOTM] 
system is a transformational command and control capability for 
all elements of the Marine air-ground task force. The LOC [line 
of credit] was received in October 2014 requiring an increase 
in approved acquisition objective from 56 to 140 NOTM systems. 
Where is the program office at with contracting production of 
these remaining systems?
    General Walsh. Thank you, Congressman. I will start off by 
giving you a broad overview of where we are at on the NOTM 
program and then I will turn it over to General Shrader to 
finish the question on exactly where we are at.
    What I would say is the Network-on-the-Move program is 
really, as you look at the modern battlefield, is really trying 
to connect our capabilities. So if we have been in Iraq and 
Afghanistan in very immovable forward operating bases, combat 
outposts, we have been in the same location in the same area 
for a long time.
    We are operating on there and we have got our command 
operations center there. And we have been able to bring that 
technology and really have a lot of situational battle space 
awareness of what is going on in that area.
    On the future battlefield, operating in a distributed 
manner, when we have to push our forces out they are more on 
the move and have to be able to distribute it more, the ability 
to share, sense, and share that information and enable our 
forces to operate as a command post on the move. And that 
basically is what our Network-on-the-Move capability is doing.
    So as we are going through this program we started off with 
our ground combat vehicle program, have now moved it into our 
ITV [internally transportable vehicle] or smaller vehicle 
program, and now what we are also seeing it is we have got the 
urgent needs requests from our special purpose MAGTFs [Marine 
air-ground task forces] that are forward requesting the same 
type of vehicle that would tie into the aircraft that are 
deploying.
    So we have changed the program to also add the addition of 
a Network-on-the-Move airborne into the Network-on-the-Move 
ground program that we have, so the ability to connect, mesh-
net that capability from the aircraft down to the ground 
commanders.
    And the specific requirement came out of the special 
purpose MAGTF was when they are en route for long hours on a 
mission they want to be able to have the battlefield awareness 
like a moving jump CP [command post] would have when they get 
on the ground. So we have increased the program to also take 
that into consideration.
    So the program is changing like that because technology is 
changing so rapidly, of using that Network-on-the-Move program 
to be able to bring more capabilities into it to give more 
added capabilities as technology continues to spin up. And with 
that, I will turn it over to General Shrader.
    Mr. Takai. I had another question, so if you could, 
General, just answer the question regarding the where we are in 
terms of contracting?
    General Shrader. Sir, to be honest with you, specifically 
where we are in the contracting I will have to come back to 
you. I do know that the 140 systems is fully funded. Right now 
the issue that we are really getting at with NOTM is that that 
capability is really key to where the Marine Corps is trying to 
go with regard to distributed operations in the command and 
control mode.
    The big thing we are getting at in NOTM is the size, 
weight, and power issues. We are trying to shrink the size and 
that weight and the amount of power that it draws on that 
system. But I will, if I could, sir, come back to you exactly 
where we are with the contracting and fully funding on the 
program.
    [The information referred to can be found in the Appendix 
on page 68.]
    Mr. Takai. Okay. Thank you. I have run out of time, so Mr. 
Chair, I yield back.
    Mr. Turner. Okay.
    Mr. MacArthur.
    Mr. MacArthur. Thank you, Mr. Chairman. I wanted to talk 
about unfunded priorities for a few moments. And just clarify 
before I get specific, did you base your unfunded requirements 
list on PB [President's budget] 2017 or on the full $574 
billion?
    General Murray. Sir, we based it on the budget that we 
submitted. So part of that was the difference between what we 
built the POM [program objective memorandum] against and what 
we got in terms of the BBA, so part of that was to backfill the 
BBA cut, if that makes sense to you? That was a big piece of 
it.
    Mr. MacArthur. I want to make sure I understand that. So 
was based on the lower----
    General Murray. Oh, yes, sir.
    Mr. MacArthur [continuing]. The lower number?
    General Murray. Yes, sir.
    General Walsh. And I would just reiterate exactly the same 
thing is we were working off originally what we thought we 
would have originally. And when the BBA came in, some things 
had to get pushed out, and as, you know, the pressure of the 
budget we had to lower, you know. The BBA helped us with 2 
years of funding that gave us stability and predictability in 
our time period.
    But the reduction of that pressure, budget pressure, ended 
up pushing some things that we couldn't fit into the budget 
numbers that we had. So the unfunded list takes into account 
those things that we originally would have bought, but now we 
are unable to buy.
    Mr. MacArthur. So I would like to get a sense of the top 
two or three, four, the most important things that got left 
off?
    General Murray. Yes, sir. I will start. So the first one 
would be what was reduced in the 2017 budget over what we said 
we needed, so it is the restoration of the BBA cut we took in 
2017. The second one would probably be increased readiness.
    As you know, the theme in this year's budget for the Army 
is near-term readiness. It is about a 5 percent increase in 
readiness, so buy back more readiness in terms of home station 
training, flying hours, some training ammunition.
    And then probably number three would be we started to 
explore the recommendations based on the National Commission on 
the Future Army. There was 63 recommendations they made, and 
some of those are fairly expensive if we go with those 
recommendations.
    Mr. MacArthur. General Walsh.
    General Walsh. You know, I am looking at our list and I 
don't know if we have had a chance to really prioritize the 
list as far as what I would look at. I know we certainly have 
aircraft items that we have got in there, specific aircraft 
capabilities. Some of our information warfare capabilities that 
we have got and some of our UAS [unmanned aircraft systems] 
capabilities is what I would say.
    But I will have to get back to you on a prioritization of 
it. It is more of a list that we have got blocked off by 
procurement areas without really prioritizing it. So I will 
have to get back with you on an answer on that.
    [The information referred to can be found in the Appendix 
on page 68.]
    Mr. MacArthur. We throw around very large numbers with 
these budgets. Whether it is $18 billion more or less, these 
are very big numbers. And yet they make a difference. Clearly 
they make a difference. You mentioned readiness, training, air 
time, things of that sort. Does that translate in a tangible 
way in your mind to increased risk to the men and women we put 
in harm's way?
    General Murray. In terms of the lack of that funding?
    Mr. MacArthur. Yes.
    General Murray. Absolutely. So I mean, and General Milley 
and General Allen since has testified and the Acting Secretary 
of the Army, the Honorable Patrick Murphy, that this budget, I 
mean, we are doubling down on near-term readiness. And it is 
based upon what is going on in the world today. It is current 
threats. It is emerging threats and it is the potential. And 
you can argue whether that potential is increasing or stays the 
same that we are going to send America's sons and daughters 
into harm's way in the near future.
    And so it is going after the near-term readiness because 
the one thing none of us can afford to do is get up in the 
morning and look ourselves in the mirror and say we could have 
prepared them better when they go. So that is why we were very 
focused at the expense of everything else in the Army's budget 
on making sure that we are ready, as ready as we can be as 
quickly as we can be. And so that is where the risk is.
    Mr. MacArthur. And so just to be really clear, we are not 
talking about maybe-so readiness. We are not talking about 
being ready for what might happen that we can't foresee, 
something around the corner. We are talking about near-term 
readiness to face threats already upon us is tangibly 
compromised by these differences between the full $574 billion 
and the, in your case, the $3.4 billion reduction because of 
this $18 billion cut. Is that correct?
    General Murray. Yes, sir.
    General Walsh. If I could add from the Marine Corps side on 
that is is that that balance we have been having to work with 
between, you know, a forward presence force that we are with 
the United States Navy and that balance of readiness because we 
are forward all the time along with the marines and soldiers we 
have got deployed in Iraq and Afghanistan, that has been a 
constant that we have been focusing very heavily on the 
readiness side at the expense of modernization.
    I think if I look at the numbers between the last since 
2003 to 2016 to now, our investments for readiness has remained 
the same. Where our continually modernization or modernization 
accounts or investments accounts have gone down from about 17 
percent average over that time to about 10 percent now.
    Mr. MacArthur. Thank you. I am out of time but I appreciate 
it.
    And Mr. Chairman, I yield back.
    Mr. Turner. Ms. Graham.
    Ms. Graham. Thank you very much, Mr. Chairman. Congressman 
MacArthur just took my question, but that is okay. It was a 
great answer, appreciate the information. So I will ask a 
different question. Thank you, gentlemen, first of all, for 
being here very much.
    As a new member of this committee, we spend a lot of time 
focused on the challenges we face in the Middle East, which has 
a unique topography. And I am sure you are training for that 
type of a potential conflict environment.
    What would happen if something sprung up in a different 
part of the world? Would there be an opportunity--would the 
training that is going on now be in any way an additional 
challenge to, say, a jungle environment or something that 
wasn't like the Middle East? And what would we need to do to 
pivot to a different battlefield? Thank you.
    General Murray. Yes, ma'am. Thank you for that. And so it 
is not really a budget question or a modernization question, 
but just based upon 33 years of doing this, it is really, you 
know, where you are and what the geography looks like, the 
conditions that you fight in is really what we would call 
conditions.
    So we train to a common standard for specific tasks, and 
those are really applicable no matter where you employ those, 
both individually and collectively. Would the jungle versus the 
desert versus the Arctic have an impact? Yes. We would have to 
account for that. But, you know, how we perform a certain task 
doesn't necessarily change and the standards we perform that 
task to doesn't change. It is the conditions that really 
change, if that answers your question.
    General Williamson. I just wanted to add a modernization 
piece to that, and it really gets to some of the questions that 
we have had in the past regarding the time it takes and the 
investment it takes in modernization.
    And so what we don't have the luxury of is building systems 
that are very specific to a particular environment. And that is 
why we design systems that have multiple uses and can operate 
in cold weather regions as well as in the jungle.
    And to do that and to make sure that you have the 
reliability that that weapon system needs to give you in a cold 
weather, as well as a hot weather region, requires us to make 
an investment on the engineering side and on the testing side 
to ensure that we don't put a solider in harm's way because we 
have placed them in an environment where the effects of the 
geography, of the weather, all of those factors can put them at 
risk.
    General Walsh. Yes, Congressman, I think, you know, we have 
been focused very much on the Middle East for good reason for a 
long time, but we are changing that. There is obviously from 
the administration with the rebalance to the Pacific, we have 
taken a lot of our forces out of the Pacific region, which we 
did a lot of jungle training when we were in there. And we have 
got four full battalions back there. We have really kind of 
regenerated that force.
    Today as we speak we have got 1,900 marines up north of the 
Arctic Circle, up in an exercise called Cold Response with our 
NATO [North Atlantic Treaty Organization] allies and working 
with the Norwegians. We are looking at our cold weather gear 
and we are relearning our cold weather capabilities that we 
have not had since really the Cold War and really used 
significantly. General Shrader is looking very closely at what 
gear we still need to reconstitute to be able to be where we 
are capable in those areas.
    Right now the Commandant has got me responsible for a 
program called Marine Corps Force 2025. And we are looking at 
this future operating environment which is looked at not just 
what we have been looking at with counterinsurgency, 
counterterrorism operations in the Middle East, but how will we 
fight in the future against this hybrid threat, against a high-
end near-peer competitor that we see both from the capabilities 
that Russia and China proliferate and how we will operate in 
that environment?
    So right now, we are going through a detailed look at our 
force unit by unit and see how are we structured from a 
capability standpoint. Do we have the right formations and do 
we have the right capabilities to go with that? But it is 
certainly this operating environment today is forcing us to 
look at things completely different than we have in the last 15 
years.
    General Shrader. Yes, ma'am. I would just say just exactly 
what Lieutenant General Williamson said. You know, when it 
comes to a system, designing it and testing it for the full 
spectrum across all the environments. That is really what takes 
a lot of time. You know, we will have a system specifically 
designed to do one thing, but then when we put it through the 
environmental-type testing is what really will sometimes make 
us go back and have to redesign it. So yes, ma'am.
    Ms. Graham. Well, I thank you and I have 17, 16, 15 seconds 
left. So I want to put in a shameless plug. I have a wonderful 
company in my district that is developing improved batteries. 
You know, we are all tethered to our units today. And I look 
forward to working with you all and talking about the benefits 
that these batteries will bring. And I think you may have 
already had some discussions, but I look forward to the future 
opportunities. Thank you and my time is now out.
    So thank you, Mr. Chairman.
    Mr. Turner. Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman, and gentlemen, 
thank you for your service, your leadership, the sacrifices of 
your families. And the question I have is going to be for both 
the Army and the Marine Corps. And as a premise for that, 
myself, the chairman, Sergeant Major, Congressman Walz and 
others here on the committee, we have introduced a bill to stop 
the drawdown for the land forces.
    We know that this is a very serious bill because it has 
consequences. It has impacts all the way across the budget. But 
it is our judgment that, you know, given the assumptions that 
were in place when decisions were made on the sizing of the 
land forces, we think there has been significant change and 
much more risk today such that the risk to deterrence, the risk 
to fighting and winning the war, and the risk to families in 
terms of the dwell time and impacts are such that we feel the 
need to come forward with the bill.
    My question to the witnesses today has to do with impacts 
on modernization. So the staff we are in the process of 
collecting information as to what the price tag would be for 
that because the leaders of both the Army and the Marine Corps 
have been very clear that while concurring with risk 
assessments it is paramount that we not hollow out the force so 
that we have the resources necessary to not only man the force 
but to equip it, to modernize it and to still make the 
investments across the full spectrum, family readiness, and 
also R&D.
    So I throw it over to the panel in terms of what that means 
in as much specificity as you can give today, but then of 
course for the record if you want to follow that up because we 
are going through this in great detail here in the committee.
    General Murray. So Congressman Gibson, thank you for that 
question, and you took away my line. So both General Milley and 
General Allen have talked about this specific issue and I think 
what both of them said, and you have alluded to it all along, 
that is an increase in end strength without an increase in 
topline would just make the problems we have right now even 
worse in terms of how do you balance structure versus readiness 
versus modernization?
    And I really think it talks about, you know, if this were 
to come to pass as to what type of formations would be built 
with that increase in terms of a modernization bill. So until 
we get a little bit further down the road and if it happens, 
you know, what specifically are we talking about? I could come 
back to you with a lot greater detail in terms of what it would 
take to equip and modernize those additional formations if that 
gets a little bit at your question.
    General Walsh. Congressman Gibson, thank you also for that 
question. I think looking back, you know, when the Marine Corps 
was downsizing from 202,000 and we were on that slope down 
trying to figure out what was a good number for us, I think we 
came up with a number of about 186 at that time. And we ended 
up with 182, which we are probably at about 183 right now on 
that slope down to 182.
    As we looked at that is what are the trades as you start to 
come down? And just as General Murray said, you start, you 
know, balancing readiness, force structure, modernization. So I 
think as we look at that, deployment-to-dwell is one of those 
things. What are we being challenged to do with right now? And 
our OPTEMPO [operation tempo] certainly has not changed a lot. 
I mean, we are a very busy force, a very busy Marine Corps.
    So from a structure standpoint you can only push the troops 
so hard, so any increase in strength I think it certainly, like 
you talked about, is going to have to have some cost to it, 
some increase in resources. So it can't just be an end strength 
add. We have got to be able to have the resource.
    So to going back to that Marine Corps Force 2025 that we 
are in the middle of doing right now is the assumption right 
now that we are going at is we maintain the 182,000 number 
structure. And how do we gain in added capabilities that we 
need within that structure? So the trades we are looking at in 
there as we drill down right now, things such as, you know, 
information warfare, as quickly as that is moving the 
technology in that area with cyber electronic warfare, 
information operations, more command and control capabilities.
    All those come at a cost and a lot of those marines that 
come in that area that are signals intelligence, electronic 
warfare capability, and our communications and computer 
capabilities, those are more senior marines. So we are trying 
the process of trying to grow a more senior force in a lot of 
ways and try to retain more seniors. That also comes with a 
cost.
    So I think it, just like General Murray said, we would have 
to get back to you. We are right in the middle of this, really, 
this drilldown in it and what we need in the future force. The 
goal where we are at right now is if we had to maintain at 182, 
knowing what adds we would have to get, what capabilities we 
would have, knowing that we are going to have to take risk and 
try to determine where the risk would come in that area.
    So as we go through this and we start moving towards a 
Quadrennial Defense Review position, we are going to already 
have kind of in our mind what are things we need to have to be 
a more modern force? We are then going to have to determine is 
do we have to take risk from other areas to be that more modern 
force? Or would there be a topline add increase in force 
structure, like you suggest, and what would be the bill that 
would go with it?
    Mr. Gibson. And Chairman, if I could just close here. I had 
a chance to talk to the Commandant last week about this and for 
situational awareness it is 184 is the number in the bill. And 
I know that the Marine Corps right now is struggling with and 
even looking at some what I would consider uncomfortable 
questions as to what would have to be decremented to meet some 
of the priorities. So I think the 184 is probably a good number 
for the Marine Corps, better than the 182, but knowing that we 
have to get this overarching cost filtered into that.
    General Walsh. And if I could just follow up? And I know 
the Commandant testified to this also that, you know, as we 
look at that he is looking at even within our formation such as 
our infantry battalions.
    Mr. Gibson. Right.
    General Walsh. So if you take an infantry battalion that 
has 950 marines today, a very formidable fighting force, but 
know that we don't have the 21st century-type capabilities that 
we need in the future to fight on that modern battlefield 
against near-peer threats and hybrid competitors. So if you are 
going to have to do a zero sum trade in there you are going to 
have to take away some of your infantry firepower capabilities 
that you have got right now to bring in----
    Mr. Gibson. And that concerned me.
    General Walsh [continuing]. To bring in some of those other 
ones.
    Mr. Gibson. Right. Thanks so much. I yield back.
    Mr. Turner. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. General Williamson, 
I would like to talk a little bit about the tactical wheeled 
vehicle fleet and the Army's plans on divesting 26,000 HMMWVs 
in fiscal year 2016, but then also in terms of the shortage 
that I see we are having with shortage of heavy equipment prime 
movers. That was something that was brought up in the National 
Commission on the Future of the Army's report.
    I am just going to read from it. It says, ``There seems to 
be some commanders indicated to the Commission that tactical 
wheeled vehicle shortages in their units are creating 
significant risks. And these shortages are most pronounced in 
heavy equipment prime movers.'' Giving an anecdotal story even 
that we have had to rely on our European allies to transport 
our tanks in support of the European Reassurance Initiative.
    So we are facing readiness issues in tactical wheeled 
mobility. What is the rationale for such a large HMMWV 
divestiture? And where in the fleet are you accepting the most 
risk? Is it HMMWVs, medium lift, heavy lift?
    General Williamson. So, ma'am, I am going to ask General 
Murray to talk the bigger modernization strategy, and then I 
would like to come back to talk to you about a specific set of 
tactical vehicles.
    Ms. Duckworth. Okay.
    General Murray. So, ma'am, and I will address this with the 
European HETs [heavy equipment transporters] first. So it is 
not a numbers issue for the HETs in Europe. It is the 
restrictions on the road networks in Europe. So the European 
HETs have more axles, distributes the weight differently than 
U.S. HETs, and so it becomes a weight issue. And that is 
specifically with the move into Eastern Europe with the 
European activity set of equipment is where we first discovered 
that.
    Ms. Duckworth. Okay. Fair enough.
    General Murray. On the National Commission report, ma'am, 
and I am very familiar with that because we are working that 
within the G-8. And I can't remember the specific number of 
that recommendation, but I believe the Commission asked us to 
come back and do a study on that and then come back to Congress 
and report out, which we will absolutely do.
    Our numbers don't necessarily agree with the Commission's 
report. It is for both the light, the medium, and the heavy we 
are showing excess wheeled vehicles. So we have got some work 
to do to figure out where the disconnect between what the 
Commission is--it might have been as simple as they went to a 
unit and that unit just hadn't fielded yet or the distribution 
wasn't right within that post, camp, or station.
    We have got some work to do to figure out where the 
disconnect is, and we are looking at that right now. And we are 
very happy to come back and as the report asks for to kind of 
lay out for you and others where we see ourselves in terms of 
wheeled vehicles in all three categories.
    Ms. Duckworth. Okay. Well, before we go back to General 
Williamson, could you address a little bit the HMMWV 
modernization in the Guard, in the Guard and Reserve? Congress 
provided $523 million for that.
    My understanding is that the HMMWV will remain in the fleet 
until at least 2035. So could you tell us what the status of 
the funds are and what the Army's strategy is for obligating 
that money? And how does Army plan on using that money to 
address the HMMWV modernization shortfalls in the Guard and 
Reserve? And then back to General Williamson, or whoever wants 
to answer that.
    General Williamson. So, ma'am, let me talk to HMMWVs 
specifically. So what I would say, with the help of Congress we 
have had the opportunity to really do two things in the HMMWV 
fleet. One, we have been able to do a recap, so as you look at 
the existing set of up-armored HMMWVs, there was an issue with 
weight, you know, when you looked at the suspension, when you 
added all of that armor.
    So that money allowed us to go back in and do an upgrade to 
the suspensions, the powertrain, in order to bring those 
vehicles up. So that is part one. Part two is that it also 
allowed us to procure a number of ambulances, a significant 
number of ambulances for the Reserve and the National Guard. So 
as I look at 2016, 2017 and 2018, that funding has given us a 
great ability to upgrade over 400 vehicles in the Reserve and 
about 1,000 in the National Guard.
    That program is on track. And the only other comment I 
would make, ma'am, is that it has also been a great example of 
the public partnership that we have had with with industry and 
with our organic industrial base. And so being able to tear 
them down in an organic facility and then be able to have them 
built back up with our vendors has given us some true cost 
efficiency. And we have done a great job getting those 
capabilities back out to the force.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, gentlemen. 
I do want to follow up just to clarify on the question about 
the female PPE [personal protective equipment], just in case 
any Neanderthals try and seize what you said to use it for 
unintended purposes, the lightening of the load that you all 
talked about has nothing to do with women being in your units, 
right? These are efforts that have been ongoing because it is 
in our best interests to have the lightest load possible for 
our soldiers and marines?
    General Williamson. Absolutely, ma'am. And so we approach 
the soldier protection system from the level that we always 
want to find ways to improve its capability, but also lighten 
the load, whether you are talking about the protective vest or 
whether you are talking about the helmet. It has nothing to do 
with whether you are a male or a female. We can't burden our 
soldiers with more weight.
    Ms. McSally. So we all agree that a lighter load on any 
soldier regardless of your gender is going to make him a better 
warfighting capability. So this is a great effort having 
nothing to do with women's integration.
    General Williamson. Yes, ma'am.
    Ms. McSally. And you agree, General Walsh?
    General Walsh. Yes, Congresswoman, same thing. I mean, we 
are looking at the same things. It is how do we lighten it for 
all the marines? So if you are a 100-pound 5-foot artillery 
person out there and you have got to lift artillery shells or 
charges up and get them up into the cannon or up onto the truck 
that is going to move them, it is the same thing whether it is 
a male or a female. It is the standards we have and how can we 
help them to lighten those capabilities in all MOSes [military 
occupational specialties]? It is not just the infantry MOS. It 
is how do we make it easier for them?
    Ms. McSally. Great. And similarly, obviously, you can both 
agree that having equipment and PPE that fits you as an 
individual regardless of your gender, you could be a 120-pound 
guy that is short who is also serving, that it is best to have 
everybody fit their equipment in order for them to be the best 
fighting force. Correct?
    General Murray. Yes, ma'am.
    Ms. McSally. All right. I just wanted to make sure.
    General Walsh. I think it has forced us to look at that 
real hard.
    Ms. McSally. On the record, so Neanderthals alert there. 
Okay. My next question is about the capabilities that we are 
talking about with the JAGM [joint] air-to-ground missile. It 
is an incremental approach in the budget with the dual-mode 
seeker being the one that is focused on in fiscal year 2017, 
whereas the tri-mode seeker, you know, provides obviously 
greater capabilities.
    So just wanted to get some thoughts on whether there is, 
you know, an opportunity or what your thoughts are on maybe 
accelerating the increment to modernization or just your input 
on that?
    General Williamson. So, ma'am, the only comment I would 
make is that we have looked at the JAGM capability both from a 
funding, but also from an engineering effort. And so we are 
very comfortable that programmatically the timeline that we 
have used is really about addressing risk. And I think I would 
be concerned programmatically about trying to accelerate it too 
much at this point. We will monitor it.
    Ms. McSally. Okay.
    General Williamson. And I can provide additional details as 
required. But right now we are very comfortable with the JAGM 
approach.
    Ms. McSally. And just focusing on Increment 1 then, the 
dual-mode seeker right now?
    General Williamson. That is correct. Yes.
    Ms. McSally. Okay. Thank you. Next question, I don't have 
your unfunded list. I just want to follow up on Congressman 
MacArthur and just clarify, do either the Army or the Marines, 
do you have anything related to counter-IED [improvised 
explosive device] technology on your unfunded list? Or have you 
asked or received everything in the President's budget that you 
need related to counter-IED?
    General Murray. Ma'am, I don't have all the details of the 
UFR [unfunded requirement list]. I will have to come back to 
you.
    Ms. McSally. Okay.
    General Murray. And I can't recall off the top of my head 
whether we do or not. So I will take that for a do up.
    [The information referred to can be found in the Appendix 
on page 67.]
    Ms. McSally. Okay. Thanks. In the past we have had some 
discussions here about counter-IED funding versus other types 
of funding, which we all agree we should probably be able to do 
both for supporting our troops. So just want to make sure we 
are clear that there is no unfunded request there.
    Can we also follow back up on WIN-T? Is everything that is 
in the President's budget request what you would recommend or 
is there anything related to WIN-T acceleration or additional 
funding on your unfunded request list?
    General Williamson. So, ma'am, as you know, on the WIN-T 
program we just recently last year received a production 
decision that allowed us to go into full-rate production. What 
the Army has done though, and this is not related to the 
technology associated with the WIN-T, but what we have done 
with the program is spaced it so that we have the ability to 
field the system to units in a priority order. I am very 
comfortable where we are at with the WIN-T program right now.
    Ms. McSally. Okay.
    General Williamson. I am not tracking a desire to 
accelerate that at this point, but I will go back and look at 
it.
    Ms. McSally. Okay. Great. Thank you. And last question is 
the [National Commission on the] Future of the Army talked 
about a gap in electronic warfare [EW] capability for the Army. 
Do you have any comments related to the EW capabilities that 
could be addressed or accelerated?
    General Williamson. I do, ma'am. So it is one of the areas 
as we talked about in our opening statement. Electronic warfare 
is one of those areas that we are concerned with from it is an 
effect on our ability to operate. And the concern that I would 
have, ma'am, is that as you look at the access to technologies. 
So our current adversaries and our potential adversaries have 
the ability to draw from the Internet, from the available 
technology that is out there and develop counters----
    Ms. McSally. Right.
    General Williamson [continuing]. To some of our very 
important systems. It is critical for us to make an investment 
in EW and electronic warfare.
    Ms. McSally. Okay. Great. I am out of time, but I 
appreciate following up on that maybe with you later.
    General Williamson. Yes, ma'am.
    Ms. McSally. Thank you. Thank you, Mr. Chairman.
    Mr. Turner. Thank you. Let us begin our second round of 
questions.
    General Walsh, in the beginning of the questioning I asked 
General Murray to respond to the issue of the budget debate 
that is ongoing. As you are aware, there is an expectation that 
the 2-year budget deal had a floor base budget amount of 574. 
The President's budget request came in $18 billion under that. 
Congress has continued to have a debate about replacing that 
$18 billion taking us back to 574.
    General Murray and the Army had given us numbers indicating 
that their portion of that $18 billion, if it is restored, was 
$3.1 billion. And I understand in response to your questions to 
Mr. MacArthur on the unfunded requirements list that you have 
not yet prioritized. Have you yet determined what your portion 
of the $18 billion shortfall will be?
    General Walsh. Specifically the $18 billion no, I would 
have to get back with you an answer on what we figured out. We 
have got our unfunded list and what that priority and how much 
we have on that, but I don't think it is tied exactly to the 
$18 billion.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Turner. But as when my questioning to----
    General Walsh. Right.
    Mr. Turner [continuing]. General Murray obviously it would 
be helpful because as we go to restore the $18 billion, being 
able to understand to what extent that restores a portion of 
your budget and what the priorities would be on the unfunded 
requirement list it gives us an ability to evaluate the benefit 
of being able to restore those funds. Thank you, General.
    Turning to Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. I wanted to ask a 
question about the soldier protection system. The 2017 budget 
request shows a significant research and development increase 
from about $5 million to $16 million, not a lot in the context 
of everything else you fund, but for this system, important. 
And it is for continued work on Increment 2 of the next 
generation soldier protection system.
    Some of the planned work cited in the budget materials 
refers to work on integrating communications, continuing to 
reduce weight, which we have heard in general is an effort that 
you are paying a lot of attention to, and possible integration 
of other advanced technologies into this system in the future.
    The Army's Natick Soldier System Center has been doing work 
for some time on future technologies. And while it is not in my 
district, I am aware of it and have visited there several times 
and have seen the extraordinary research that is taking place 
there.
    And some of those future technologies would include 
communications, health monitoring. At one point I learned about 
injecting sensors so you could detect an injury and send some 
material to it to help stop the bleeding. Excuse me for my 
throat. In other areas it could be miniaturized. So can you 
provide some details? And I will drink some water. Sorry.
    General Williamson. Ma'am, I will. So let me talk to the 
funding and the acceleration piece. So it goes back to your 
point about the nature of this integrated system. You have to 
start with the integration.
    So five key components, right, the hard armor that protects 
the torso, the vest, all of those things associated with the 
torso, the extremities, the helmet, which will be lighter and 
also include upgrades to the blast detection as well as hearing 
protection. And then this integrated sensor system that you 
talked about, and I want to talk about that a little more. And 
then the eye protection.
    And so although we are looking at these systems 
simultaneously, the way the funding was allocated it was going 
to take us starting in 2016 for the torso, but it wasn't until 
2019 that we were going to get to the integrated sensor suite 
that you saw at Picatinny. It is a really important component 
because what that will allow you to do is not only measure 
things like heart rate, but it will also give you feedback on 
things like hydration. So when you put a load on a soldier and 
they are operating in a combat environment, how do we have the 
mechanisms to monitor?
    In order to do that you also have to tie in the network 
communications systems. And so we start with this notion of 
integration, but how do we also--if you are going to add those 
five different components together, how do you make sure that 
you are continuing to lighten the load? The goal for the entire 
system is to make it 10 percent to 15 percent less weight than 
what the soldier carries today even with adding those 
capabilities.
    But the last piece I would like to talk about is the eye 
protection. So one of the more impressive things that they are 
doing is building transitional eyewear that allows a soldier to 
move from a dark environment into the light and back and forth 
without the disorientation that occurs because of that change 
in environment while adding about 10 percent more fragmentation 
blast protection.
    And so it is all of those components that make this system 
and soldier protection so important. So the additional funding 
helps to get us there sooner.
    General Murray. Yes. I would just add that as a soldier 
that has carried two pairs of glasses for the last 15 years, 
been in--I was going to say that doesn't sound like much, but 
that is a huge deal to not have to worry about transitioning, 
physical transitioning eye protection. The actual lenses do it 
for you.
    Ms. Tsongas. I have seen some of the plastics engineering 
that is going into that lens and it is pretty remarkable. And I 
am curious how the Marine Corps is working with--are you 
working across services? Are you part of this process?
    General Shrader. Yes, ma'am. We are. And so I can tell you 
I have been working body armor systems, protective systems for 
the last 10 years within the Marine Corps Systems Command, and 
on a number of systems collaborating with the Army. For 
example, the enhanced combat helmet that we developed and now 
we are in the final stages of fielding the first 77,000 of 
those. We worked with the Army on that, and they are also 
fielding that helmet. So we are working with them.
    We have formal forums that we meet quarterly with the Army 
and then informally. My program offices and their program 
offices probably a weekly basis if not more, and then monthly 
also. So yes, ma'am, we are working with them.
    Ms. Tsongas. I don't want to keep you all, but I would 
encourage you, and I assume you are thinking about different 
climates because it is not only weight. I don't know what the 
temperature issues will be. And that you will also be mindful 
of women making their way, ever more women making their way 
into serving and to not leave that to an afterthought.
    Thank you all.
    Mr. Turner. Thank you. We appreciate your presentations 
today, and we will be adjourned.
    [Whereupon, at 2:14 p.m., the subcommittee was adjourned.]

=======================================================================




                            A P P E N D I X

                             March 2, 2016
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 2, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
---------------------------------------------------------------------------
    Note: The unfunded priority list was divided into two parts, in 
order to be more readable.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 2, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER

    General Walsh. We cannot determine what portion of the $18B 
additional topline would have been allocated to the Marine Corps; 
however, attached is a prioritized list of our unfunded requirements in 
FY17, totaling $2.7B. This list, together with the President's Budget 
request, would provide adequate funding to cover our requirements in 
FY17.   [See page 23.]
    [The list referred to can be found in the Appendix beginning on 
page 61.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. McSALLY
    General Murray. No, the Army does not have any Counter-Improvised 
Explosive Device (C-IED) technologies on the unfunded requirements 
list. The Army understands the critical need for Counter-IED 
capabilities and continues to program funding to support this effort. 
The Army is funding the recapitalization of Route Clearance and 
Explosive Ordnance Disposal vehicles (Buffalo, Husky and Medium Mine 
Protected Vehicle Type I), the procurement/recapitalization of Counter-
IED Enablers (Rollers, Debris Blowers, Wire Neutralization Systems and 
Vehicle Optics Sensor System) and the development of new Counter-IED 
capabilities (Route Clearance Interrogation System) and Husky Mounted 
Detection System in the Fiscal Year 2017 (FY17) President's Budget 
Submission.
    The Army continues to utilize Overseas Contingency Operations (OCO) 
Other Procurement, Army (OPA) funding for the recapitalization of 
repurposed Mine Resistant Ambush Protected vehicles into Program of 
Record Medium Mine Protected Vehicles Type II to round out the Route 
Clearance formations and expects to request OCO OPA funding through 
FY19 to complete this effort. Additionally, the Army has fully procured 
Counter Radio-Controlled Improvised Explosive Devices and continues to 
fund Research, Development, Testing, and Evaluation to maintain 
relevancy and keep pace with the ever-changing threat. The Army is also 
funding the Double-V Hull for the Stryker vehicle to mitigate 
underbelly IED blasts and will complete the fielding of the third 
Stryker Brigade Combat Team (SBCT) in FY17 and the fourth and final 
SBCT in FY20.   [See page 22.]
    General Walsh. Yes, our Unfunded Priorities List (UPL) does have 
Counter Improvised Explosive Device items included. Attached you will 
find a letter from the Commandant of the Marine Corps to Chairman 
Thornberry and the Marine Corps' Unfunded Priorities List, organized by 
priority. You will note that items 54 and 55 comprise Explosive 
Ordnance Disposal Mission Equipment. This consists of both procurement 
and operations & maintenance funding. That equipment will include:
    <bullet>  Video Fiber Optic Scopes--a lightweight safety compliant 
means of searching/identifying devices and components.
    <bullet>  MD82 Firing Device--a lightweight firing device with 
multiple means of initiation.
    <bullet>  AN/PVS-31 with Enhanced Clip-on Thermal Imager--a removal 
system for thermally controlled explosives.
    <bullet>  Kukri & Saber Detonator Diagnostic Kits
    <bullet>  Grid Aim Kit--an enhancement to our x-ray kit.
    <bullet>  AN/PDX-2 Kits--high fidelity capability upgrades and 
additional systems for Marine Special Operations Command.
      [See page 22.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAKAI
    General Williamson. M88A2 Heavy Equipment Recovery Combat Utility 
Lift and Evacuation System (HERCULES)
    Base funding for Fiscal Year 2017 (FY17) provides for procurement 
of 22 M88A2 HERCULES. With these 22 in FY17, the Army will have 
procured 839 of its 933 Authorized Acquisition Objective (AAO). To 
maintain a minimum sustaining rate on the production line and continue 
procurement to the AAO, the Army submitted a UFR for 16 additional 
M88A2s in FY17. The Army converts M88A1s vehicles to the M88A2 
configurations.
    At completion of the current funding (Fiscal Year 2016), the Army 
will have 353 M88A1s remaining in the inventory. After achieving the 
M88A2 AAO of 933, the Army plans to retain 237 M88A1s for operational 
use across the Army. In addition, we have several hundred M88A1s, in 
varying conditions, at Anniston Army Depot that will be excess to Army 
needs and subsequently available for Foreign Military Sales.   [See 
page 12.]
    General Shrader. Currently 132 of 140 are funded. Funding for the 
other 8 has been reallocated to meet Type 1 encryption requirement. 
Type 1 Encryption is to protect and ensure the safe transmission and 
receipt of classified data; including full motion video from ISR 
platforms. NOTM has NIPR and SIPR capability.
    There is no prime contractor. SSC LANT is our integrator and they 
will assemble the NOTMs through FY20 per the following execution 
profile, which totals 69 across the FYs. This plus the 63 we have 
already bought gives us the aforementioned total of 132.
    FY17: 23  FY18: 9  FY19: 20  FY20: 17
    The remaining 8 will cost $12M. We will work to have the delta 
addressed in future POM cycles and also continue to pursue cost 
reductions that enable us to reduce that delta.   [See page 13.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. MacARTHUR
    General Murray and General Walsh. Attached you will find a letter 
from the Commandant of the Marine Corps to Chairman Thornberry and the 
Marine Corps' Unfunded Priority List, organized by priority.   [See 
page 14.]
    [The information referred to can be found in the Appendix beginning 
on page 61.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 2, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Please provide the subcommittee with an update on the 
Army's expedited non-developmental item vehicle active protection 
system program, to include its schedule. And, is this program fully 
funded in FY17?
    General Williamson. On February 18, 2016, the Army Acquisition 
Executive approved an Acquisition Decision Memorandum authorizing 
expedited experimentation and characterization of non-developmental 
items (NDI) Active Protective Systems (APS) on the M1 Abrams, M2 
Bradley, and the Stryker Family of Vehicles to assess maturity, 
performance, and integration risks. This expedited installation and 
characterization effort will inform a future decision to fully 
integrate onto Abrams, Bradley, and Stryker platforms. To date, NDI APS 
vendors have been selected for the M1 Abrams and Stryker. Selection of 
the NDI APS for Bradley is expected by April 30, 2016. Following 
receipt of hardware, the installation and characterization effort is 
expected to take approximately 12 months per platform.
    Abrams currently has Fiscal Year 2016 (FY16) program funding and 
execution authority to begin the effort. An Above Threshold 
Reprogramming (ATR) action for Bradley and Stryker is being initiated 
to request execution authority as a new start, and reprogramming FY16 
Research, Development, Test and Evaluation (RDT&E) funds in the amounts 
of $11.0 million (M) for Bradley and $16.8M for Stryker. In the FY17 
President's Budget, Abrams requested $15.3M, Bradley requested $15.3M, 
and Stryker requested $14.4M. Additionally, the Chief of Staff of the 
Army has submitted an Unfunded Requirement request that includes $10M 
(RDT&E) and $80M (Wheeled and Tracked Combat Vehicles) for Abrams. The 
receipt of the requested FY16 and FY17 funding will fully fund the 
expedited APS NDI effort to complete installation and characterization 
for Abrams, Bradley, and Stryker.
    Mr. Turner. How did the Department's reinterpretation of the BBA 
2015 impact your modernization strategies in FY17?
    General Williamson. To fund our Army at $1.4 billion less than the 
Fiscal Year 2016 (FY16) enacted level of $126.5 billion, the Army 
preserved current readiness levels, but assumed risk in long-term 
modernization and sustainment. As a result, we reduced investments in 
procurement by purchasing lower quantities than previously planned. To 
reduce risk, the Chief of Staff of the Army's FY17 unfunded 
requirements (UFR of $7.5 billion) includes $3.1 billion to address 
several of the programs impacted by the funding reduction. The $3.1 
billion in modernization UFRs, as well as all of the remaining UFRs, 
should come as an additive increase to the Army's topline and should 
not displace funding that is part of the President's budget.
    Mr. Turner. What are your top unfunded requirements in fiscal year 
2017 for ground force modernization?
    General Williamson. The top unfunded modernization programs are a 
subset of the Chief of Staff of the Army's Fiscal Year 2017 unfunded 
requirements (UFRs). These programs are the AH-64 Apache Block IIIB New 
Build, AH-64 Apache Block IIIB Advanced Procurement, Light Utility 
Helicopter, Vehicle Protection System and War Reserve Ammunition for a 
total of $616 million.
    Providing funding for the top modernization UFRs would greatly 
enhance the readiness and modernization of the nation's land forces. 
However, the $616 million in UFRs, as well as all of the remaining 
UFRs, should come as an additive increase to the Army's topline and 
should not displace funding that is part of the President's budget.
    Mr. Turner. How will the acquisition authorities in the NDAA FY16 
assist the Army with providing modernized equipment to soldiers in a 
more timely manner?
    General Williamson. The Army is reinvigorating command centric Army 
Requirements Oversight Council as a venue for National Defense 
Authorization Act requirements. We are aligning modernization efforts 
with current Soldier needs by balancing modernization requirements 
against current resourcing. The Army will expand experimentation and 
prototyping, improve sustainment, and develop a Rapid Capability 
Office.
    Mr. Turner. Would you consider body armor to be a defensive weapon 
system that requires continued technology development? If so, then why 
is body armor managed and procured like a commodity?
    General Williamson. The Army will continue to invest in 
improvements for body armor through research and development of 
advanced ballistic fibers, improved ceramics, and integration 
optimization to continue reducing weight and meeting emerging threats. 
Body armor is managed similar to cold weather clothing, body armor is 
like types of products which vary in ranges of sizes, and the supply, 
and issuing mechanism. Like a commodity due to being expendable, 
individual equipment much like cold weather clothing.
    Mr. Turner. Now that virtually all combat roles are available for 
women, what are your commands doing to design and develop PPE and OCIE 
for female combatants?
    General Williamson. The Army has undertaken many initiatives to 
provide properly fitting uniforms and OCIE and PPE to female Soldiers. 
Such initiatives include providing a better fitting Army Combat 
Uniform-Female, Army Physical Fitness Uniform, and Flame Resistant 
Environmental Ensemble Undergarments. The Army also provides Soldiers 
with a Tactical Assault Panel for their Modular Lightweight Load-
carrying Equipment (MOLLE) that enables each Soldier to adjust the 
straps, enabling the MOLLE to fit all ranges of the Soldier population. 
Regarding PPE, the Female-Improved Outer Tactical Vest (F-IOTV) is a 
variant of the Generation 3 IOTV that provides female Soldiers with a 
better fit, allowing them to perform their missions more effectively. 
The F-IOTV provides the same unsurpassed ballistic protection of 
existing Army body armor, while providing eight additional sizes in 
conjunction with other modifications designed to provide a better fit. 
Similarly, the new Soldier Protection System Torso and Extremity 
Protection (TEP) subsystem will account for a wide population including 
small statured Soldiers, both male and female. TEP features include 
smaller shoulder width, adjustable cummerbund, and a shorter length. 
The TEP ballistic combat shirt will also encompass female specific 
sizing and will mitigate compatibility issues with hair buns in 
comparison to the legacy yoke and collar.
    Mr. Turner. Could you please comment on how the Army plans to 
implement warhead technology on small guided rocket munitions that are 
capable of neutralizing a wider spectrum of targets such as light and 
up armored vehicles, bunkers, and structures?
    General Williamson. Research into precursor warheads for larger 
anti-tank munitions suggests their suitability for penetrating warheads 
for small guided munitions. A feasibility study of a small diameter 
penetrator coupled with a follow-through grenade also indicated 
suitability against personnel in urban structures, bunkers, and medium 
armor. This feasibility study served as the basis for long term plans 
for a new warhead for the Modular Missile Technologies (MMT) 70-mm 
diameter guided munition and Army Science and Technology efforts to 
demonstrate a modular open systems architecture for guided missiles 
that support light weight, rapidly-tailorable product line approaches 
aimed at scalability of size and effects for affordable precision 
multi-role missiles.
    Mr. Turner. Please walk us through some of the next generation 
cluster munition programs currently in development that will be in 
compliance with current DOD policy, and when do you expect these 
compliant systems to begin production and fielding?
    General Williamson. Army Science and Technology (S&T) is investing 
in both Applied Research and Advanced Development to demonstrate three 
potential Cluster Munition (CM) Replacement technologies: Munition for 
Armored Combat Engagement (MACE), Proximity Initiated Submunition 
(PRAXIS), and Dual-Purpose Improved Conventional Munition--Enhanced 
Lethality (DPICM-XL). These Cluster Munition alternatives will be 
compliant with signed DoD CM Policy and the Convention on Cluster 
Munition, commonly referred to as the ``Oslo Treaty.''
    MACE is a unitary round which will exploit superior fragmentation 
spray angle and penetrator design geared towards well located, point 
targets. PRAXIS is geared to poorly located, large area targets, and 
consists of four full-bore submunitions designed to fit within the 
M483A1 DPICM projectile payload volume. DPICM-XL, like PRAXIS, is 
geared to poorly located, large area targets, and consists of 63 
submunitions also designed to fit within the M483A1 DPICM projectile 
payload volume.
    Army S&T plans to demonstrate all three technologies in the fourth 
quarter of Fiscal Year 2019.
    Mr. Turner. From FY13-FY16, Congress has provided the Army 
approximately $520.0 million in additional funding to address HMMWV 
recapitalization and modernization requirements for the Guard and 
Reserve. What is the status of these funds, and how is the Army using 
these funds to address HMMWV modernization shortfalls in the Guard and 
Reserve?
    General Williamson. The $360 million in Congressional funding 
provided between fiscal year 2013 (FY13)-FY15 procured 455 Ambulances 
for the Army National Guard (ARNG) and 155 Ambulances for the United 
States Army Reserve (USAR), modernized and/or recapitalized 1,083 Up-
Armored High Mobility Multipurpose Wheeled Vehicle (HMMWV) (Up Armored 
HMMWV (UAH)) Troop Carriers, and converted 126 UAH Armament Carriers to 
UAH Tube-launched Optically-tracked Wire-guided missile variants. The 
$160 million in Congressional funding provided in FY16 will be used to 
buy 517 HMMWV Ambulances ($140 million for 452 Ambulances for the ARNG; 
and $20 million for 65 Ambulances for the USAR.
    Mr. Turner. What is your current acquisition strategy for the 
Ground Mobility Vehicle (GMV) program, and are there ways to expedite 
the procurement and fielding of this vehicle to infantry brigade combat 
teams?
    General Williamson. The current acquisition strategy for the GMV is 
for the program to enter in at Milestone C in Fiscal Year 2017 (FY17). 
Full and Open Competition will be utilized to select the vendor to 
produce the GMV. The current plan to fulfill requirements is by using a 
commercial off-the-shelf or non-developmental item vehicle. The current 
procurement quantity is 150 vehicles, plus two additional vehicles for 
destructive testing. First Unit Equipped will be in FY19. This schedule 
already makes use of a streamlined process to bring this capability to 
the Soldier as soon as possible.
    Mr. Turner. Please provide the subcommittee with more details as to 
which programs and capabilities were impacted by DOD's reduced topline 
budget request for fiscal year 2017?
    General Walsh. Attached is a prioritized list of our unfunded 
requirements in FY17, totaling $2.7B. This list, together with the 
President's Budget request, would provide adequate funding to cover our 
requirements in FY17.
    [The list referred to can be found in the Appendix beginning on 
page 61.]
    Mr. Turner. Would you consider body armor to be a defensive weapon 
system that requires continued technology development? If so, then why 
is body armor managed and procured like a commodity?
    General Walsh. Yes, and we do in fact design and procure our 
Ballistic Protections Systems (BPS) as a system. We fully understand 
and realize the importance of ensuring that the various pieces of 
equipment integrate well together to ensure both effective protection 
and the mobility and agility of our Marines on the battlefield. In fact 
we have developed several means for evaluating the various components 
of the system to ensure that we continue to enhance our mobility. For 
example the Marine Corps Load Effects Assessment Program (MCLEAP) 
requires Marines to maneuver obstacles similar to those encountered in 
an operational environment to ensure that any new equipment or 
modification to equipment does not negatively impact mobility. These 
systems are managed and purchased as a commodity to allow flexibility 
both in the incremental improvements of the system and because of the 
semi-consumable nature of the equipment.
    Mr. Turner. Now that virtually all combat roles are available for 
women, what are your commands doing to design and develop PPE and OCIE 
for female combatants?
    General Walsh. The Marine Corps is fully committed to the 
importance of ensuring that all of our Marines, regardless of gender 
and occupational specialty have effective Ballistic Protection Systems 
(BPS), Personal Protective Equipment (PPE), and Organizational Clothing 
& Individual Equipment.
    The Marine Corps continuously works to improve current clothing, 
protection and equipment capabilities to decrease size, weight and bulk 
while improving design and fit in order to provide increased protection 
and mobility. This work is informed by government and industry efforts 
to develop materials that will help achieve these goals. These efforts 
also inform our path towards future capabilities that seek to move 
beyond incremental improvements to true next generation systems that 
incorporate novel designs and materials. In addition to seeking to 
reduce size, weight and bulk of materials, the systems approach looks 
to find efficiencies through better integration of components and 
design of all the capabilities together. We keep the Army and other 
services apprised of our near term efforts, while working together 
jointly towards future capabilities.
    In order to inform our actions on this matter, the Marine Corps 
conducted a Smart Adaptation Study, which provided us anthropometric 
data on the various statures of our Marines. Based on the Smart 
Adaptation Study recommendations, the Marines Corps will expand its fit 
requirement range from the 2nd percentile smallest female to the 98th 
percentile largest male in order to properly fit as much of our service 
population as possible. Where feasible, we will procure the additional 
sizing of current capabilities to meet the new requirement and will 
ensure compliance of all future individual clothing, equipment and 
protection. Additional efforts include an initiative to procure a 
smaller adjustable pack frame sized to better fit the range of Marines 
under the current requirement of 5th percentile female to 95th 
percentile male population.
    Mr. Turner. How did the Department's reinterpretation of the BBA 
2015 impact your modernization strategies in FY17?
    General Walsh. The ongoing fiscal uncertainty facing the nation, 
including reductions associated with the 2015 BBA, have required us to 
take some risk in our modernization accounts (procurement, research and 
development, and infrastructure investments) in order to protect the 
near-term readiness of our deployed and next-to-deploy forces. The 
attached list of FY17 unfunded requirements, ranked by priority, 
reflects some of this risk. It includes several MILCON projects, 
procurement of airframes, and procurement of aviation and ground 
equipment, either to buy back BBA reductions or to enhance programs 
that have suffered under the ongoing fiscal constraints.
    Mr. Turner. Please provide the subcommittee with more details as to 
which programs and capabilities were impacted by DOD's reduced topline 
budget request for fiscal year 2017?
    General Murray. The Army's Fiscal Year 2017 (FY17) request is $1.4 
billion less than FY16 enacted $126.5 billion. To fund our Army at $1.4 
billion less than the FY16 base funding level, we preserved current 
readiness levels, reduced investments in procurement by purchasing 
lower quantities than previously planned, assumed risk in long-term 
modernization and sustainment, and reduced funding in facilities 
sustainment and military construction accounts.
    Mr. Turner. Current DOD policy requires that the failure rate of 
cluster munitions must be 1 percent or less after 2018. It's my 
understanding that cluster munitions are a military necessity. What 
impacts will this policy enactment have on current cluster munition 
inventories and programs?
    General Murray. The policy inhibits our ability to employ effective 
indirect fires, in support of ground forces, operating in many likely 
threat contingencies in the European and Pacific Command areas of 
operation. Indirect fires are essential to neutralize or destroy massed 
armored combat formations, deny them terrain or degrade their ability 
to maneuver.
    When the policy is enacted, the Army will lose 100 percent of its 
unguided Multiple Launch Rocket System (MLRS) munitions, 12 percent of 
its Guided MLRS (GMLRS) munitions, 58 percent of its Army Tactical 
Missiles System (ATACMS), and 51 percent of its lethal cannon 
munitions.
    To mitigate the impact of the policy, the Army is pursuing a 
variety of options in the near-term (FY17 to FY21). These options 
include, but are not limited to $1.3 billion for the GMLRS-Alternative 
Warhead and $118 million for applied research and advanced development 
for cluster munition replacement technology and the development of a 
low cost tactical extended range missile to replace our aging ATACMS.
    Mr. Turner. The budget request contained $3.4 billion for the 
European Reassurance Initiative (ERI). Of the total request, $2.8 
billion is directed towards the Army, and out of this amount almost 
$1.0 billion is for Army procurement. What major end-items do you plan 
to procure and field with this funding?
    General Murray. The major end-items included are: 14 modernized M1 
Abrams Tanks; 14 M2 Bradleys; 12 Paladin Integrated Management; more 
than 600 various medium tactical vehicles, such as cargo trucks, 
tractor trailers, palletized load system, wreckers, Heavy Expanded 
Mobility Tactical Trucks; and 14 Assault Bridge Systems. These 
procurements begin to fill the Armored Brigade Combat Team equipment 
set supporting the European Command Commander's request for Army 
Prepositioned Stock to deter aggression in the region.
    Mr. Turner. What are your top unfunded requirements in FY17 for 
ground force modernization?
    General Shrader. The following are the Marine Corps top unfunded 
ground modernization priorities: 1. Special Purpose MAGTF En-route C4 
Urgent Universal Need Statement 2. Enhanced Combat Helmet 3. 
Lightweight 155 Chrome Tubes 4. Communication Emitter Sensing and 
Attack Systems II 5. Rifle Combat Optic Modernization 6. Guided 
Multiple Launch Rocket System--Alternate Warhead munition for HIMARS 7. 
Broadband Meshable Data Link 8. Composite Tracking Network-Common Block 
Array-Antenna 9. Internal Appointment Modules for Rigid Shelters 10. 
Target Handoff System 11. Rapid Response Kit Terminals 12. Nano/
Vertical Takeoff and Landing Small Unmanned Aircraft Systems 13. RQ-21 
Blackjack Technology Insertion Program for Savings BLK III
    Mr. Turner. Do the Marines plan to upgrade their M1A1 tanks? If 
not, why?
    Mr. Taylor. The Marine Corps has chosen to selectively modify the 
M1A1 vice pursuing the M1A2, primarily due to affordability and the 
increased weight of the M1A2. USMC M1A1s have the improved Abrams 
suspension, 2nd Gen Forward Looking Infrared (FLIR) and the Stabilized 
Commander's Weapons Station. Currently the Abrams Integrated Display 
and Targeting Systems (AIDATS) is in development and will achieve MS C/
LRIP in June 2016; Slew-to-Cue (STC) for the Stabilized Commander's 
Weapon Station (SCWS) begins production in March 2016; Generation IV 
Ammunition Racks are in the middle of fielding; the Ammunition Data 
Link (ADL) has begun fielding and will achieve IOC in March 2016; 
Firepower Enhancement Program (FEP) modernization and obsolescence 
mitigation will begin in 1st Qtr FY17. Research and development of 
survivability upgrades to include examination of armor alternatives, 
3rd Generation FLIR and a Service Life Extension Program are being 
planned for in the future. All of these efforts are coordinated with US 
Army PM Abrams.
    Mr. Turner. The Army is currently funding a lethality program for 
their Stryker Combat vehicles. What are the Marine Corps plans to 
pursue a similar program as part of their LAV modification acquisition 
strategy?
    Mr. Taylor. The Marine Corps maintains close coordination with U.S. 
Army programs to improve the lethality of its Stryker Infantry Carrier 
Vehicle (ICV). Our Light Armored Reconnaissance formations are equipped 
with the LAV-25 and supporting mission role variants (MRV). Unlike the 
Striker ICV, which is equipped with a heavy machine gun or automatic 
grenade launcher in a remote weapons station (RWS), the LAV-25 is 
equipped with the M242 25mm automatic cannon in a manned turret.
    The Marine Corps is currently upgrading its M242 systems to the 
enhanced configuration mounted in the Army's Bradley Fighting Vehicle. 
This upgrade will enable LAV-25 crews to fire depleted uranium (DU) 
ammunition. The capability of firing DU combined with fire control 
system improvements constitute a significant increase in LAV-25 
lethality and serve to further extend the effectiveness of the system 
well into the 2020's.
    LAV-25s do not fight alone, but rather as part of a family of 
vehicles; MRVs enable critical supporting capabilities. The LAV-
Antitank (LAV-AT) provides heavy anti-armor and anti-material fires. 
LAR formation lethality is being further improved by the fielding of a 
modern TOW missile launcher mounted in an RWS on the LAV-AT. The 
upgraded LAV-AT will be capable of firing advance generation anti-armor 
and anti-materiel TOW munitions. These improved systems are in 
production and will begin fielding in 2017.
    Additionally, our LAV-Command & Control (LAV-C2) systems were 
upgraded with modern C2 suites in the last decade and are currently 
undergoing hardware and software technical refresh. The LAV-C2 carries 
a fire support team capable of coordinating and directing surface and 
air delivered fires as well as directing the organic fires delivered by 
LAV-Mortar MRVs.
    As the Army fields improved lethality systems in its SBCT and ABCT 
formations, normalizing new weapons and ground ammunition types, the 
Marine Corps will continue to closely monitor their progress, exploit 
joint opportunities to improve our capabilities, and work to ensure the 
continued operational effectiveness of our LAV equipped formations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GIBSON
    Mr. Gibson. I am concerned with maintaining sustainable readiness 
at our arsenals. Watervliet Arsenal is just outside of my district and 
the key to maintaining the critical skills needed to support sustained 
readiness of our cannon and mortar production capability is through 
adequate workload. Unfortunately, the minimum sustaining rate at 
Watervliet is 323,000 direct labor hours annually while the projected 
FY16 workload will provide only 185,000 direct labor hours. While Army 
Materiel Command has been very proactive in utilizing congressionally 
mandated Arsenal Sustainment funding to provide multi-year cannon 
workload, continued budget uncertainty and defense spending drawdowns 
undermine the ability for Watervliet to establish firm baselines. I 
welcome your remarks on this issue and any thoughts on what more can be 
done in order to maintain this critical capability within our 
industrial base, given the current budget environment. Additionally, I 
ask that you comment on your perception of the added risk taken on by 
underutilizing our arsenals and therefore dropping drastically below 
the direct labor hours needed to maintain critical skills.
    General Williamson and General Murray. The Army is dedicated to 
sustaining Organic Industrial Base core logistics capabilities which 
maintain and generate combat power for the Joint Force Commanders. The 
Army continues to work with the Office of the Secretary of Defense to 
provide to Soldiers processes that support critical manufacturing 
capabilities for Army arsenals and to improve our capabilities to meet 
joint readiness requirements. These improvements will result in 
strengthening the workload levels to sustain these capabilities.
    The Army is attempting to close this gap by qualifying the arsenals 
as second manufacturing facilities which will support new equipment 
production. An example would include a partnership between Army 
Materiel Command (AMC) and the Defense Logistics Agency (DLA) to 
establish the arsenals as a DLA source of supply for Army-related parts 
managed by DLA.
    The Materiel Enterprise Capabilities Database was developed to 
enable new and current customers quick access to information regarding 
the OIB equipment, facilities, capacities, and skills available to 
satisfy customer manufacturing or repair requirements and perform make-
or-buy analysis. This capability is a statutory requirement under the 
authority of Title 10 U.S. Code 4532, it also allows work with AMC 
regarding the OIB requirements.
    With the support of AMC, Watervliet Arsenal is able to pursue 
workload outside of Department of Defense. This includes Public-Private 
Partnerships (in which the Arsenal works as a subcontractor to a 
commercial company under Title 10 U.S. Code 2474), Federal Agencies 
(under Title 10 U.S. Code 2470) and Foreign Military Sales.
    If the Army receives the funding requested for Fiscal Year 2017 
(FY17), about 1.4 million (M) Direct Labor Hours (DLHs) will be 
executed across the arsenals. We estimate that the arsenals require 3M 
DLH to effectively support equipment readiness, control costs, and 
maintain essential skill sets.
    Workload at Watervliet Arsenal peaked at 442 thousand DLH in 2009. 
For FY17, the Army projects 200K DLH, which brings us below our average 
peacetime workload of 225K DLH. If critical manufacturing capabilities 
within the OIB are not maintained, there exists a degree of risk exists 
to the Nation. The Army is at risk to lose capabilities to manufacture 
unique, hard to produce items and those items not profitable in private 
industry production. Private industry may most likely not have the same 
ability to rapidly react and surge during
    Mr. Gibson. I am concerned with maintaining sustainable readiness 
at our arsenals. Watervliet Arsenal is just outside of my district and 
the key to maintaining the critical skills needed to support sustained 
readiness of our cannon and mortar production capability is through 
adequate workload. Unfortunately, the minimum sustaining rate at 
Watervliet is 323,000 direct labor hours annually while the projected 
FY16 workload will provide only 185,000 direct labor hours. While Army 
Materiel Command has been very proactive in utilizing congressionally 
mandated Arsenal Sustainment funding to provide multi-year cannon 
workload, continued budget uncertainty and defense spending drawdowns 
undermine the ability for Watervliet to establish firm baselines. I 
welcome your remarks on this issue and any thoughts on what more can be 
done in order to maintain this critical capability within our 
industrial base, given the current budget environment. Additionally, I 
ask that you comment on your perception of the added risk taken on by 
underutilizing our arsenals and therefore dropping drastically below 
the direct labor hours needed to maintain critical skills.
    General Walsh, General Shrader, and Mr. Taylor. We share your 
concern for the continued viability of Watervliet Arsenal and the risk 
associated with a reduction in work levels. As the question noted, Army 
funding of the multi-year cannon workload is a key element for 
sustaining the Arsenal's readiness. In addition, Foreign Military Sales 
(FMS) also offers a potential source of work demand. For example, our 
Light Armored Vehicle FMS program for Saudi Arabia is using Betne Labs 
at Watervliet for mortar tube and breech fatigue testing. This is a 24-
month, approximately $4 million effort. The Marine Corps Armor and Fire 
Support Systems Program also utilizes Watervliet for the M1A1 M256 
Cannon. The workload is mainly through our Enterprise Logistics 
Management Program and when evacuation criteria is met on the M256 
cannon.
    Watervliet does represent a critical core capability. We are 
sensitive to the current utilization trends experienced by the Arsenal. 
When opportunities have presented themselves to use Watervliet, such as 
our Ammunition Data Link modification to the M1A1 Tank, we directed the 
work to Watervliet even though it could have been completed elsewhere. 
Unfortunately, a further reduction to throughput may occur as the 
Marine Corps completes our reset requirements for the M1A1.
    A decrease in capability from Watervliet would also impact Marine 
Corps infantry weapon systems. Specifically, we depend on the Arsenal 
to produce our gunner protective kits (turret protection for HMMWV's, 
MRAP's and JLTV's) as well as M253 81mm mortar cannons as the 
government's primary cannon producer. If capability is lost at 
Watervliet we do not know of an alternative source with the ability to 
produce steel mortar tubes at this time. Our partner and supported 
Program Executive Officer (PEO) Mr. Taylor also shares the 
congressman's thoughts and concerns about the importance of Watervliet 
Arsenal, as they are a key supplier to the Marine Corps, manufacturing 
the cannon assembly for the M777A2 Lightweight 155mm Howitzer. The 
PEO's program management office for this weapon, located at Picatinny 
Arsenal, New Jersey has purchased more than 1,000 cannon assemblies 
plus spares for the Marine Corps, Army, and partner nations. Watervliet 
is currently working on a $7.3M modification for the M777 Spindle, a 
critical component for the cannon assembly. The program office has 
requested pricing from Watervliet for an additional 145 cannon 
assemblies to support a foreign military sale with India for the 
M777A2. The Letter of Offer and Acceptance is currently with the Indian 
Government and the program office is anticipating final signature later 
this year. Additionally, to address wear issues identified with the 
newest artillery charges the program office has submitted an unfunded 
request for FY17 to purchase approximately 114 of Watervliet's new M777 
chrome cannon tubes which have just successfully completed testing. We 
look forward to a continued partnership with Watervliet and the work 
they do for our military.
    Mr. Gibson. Is modernization of equipment, technology and 
infrastructure a replacement for force structure and does the current 
force structure allow for a modernized force that is capable of meeting 
major modern conventional threats, such as Russia, China, North Korea, 
and Iran? Additionally, to clarify, in the modern era is it appropriate 
to no longer size the United States Land Forces ``to conduct large-
scale, prolonged stability operations'' as mentioned in the 2012 
Defense Strategic Guidance, and instead rely solely on modernization 
and readiness to achieve and maintain peace, assure our allies and 
partners, and respond decisively to global threats and crises?
    General Walsh. Both modernization and force structure are 
important. Without adequate modernization, we will be outpaced by our 
adversaries and placed a position of disadvantage on the battlefield. 
However, while increased capability as a result of modernization 
provides many advantages, there is no replacement for the world wide 
coverage and dwell rate that force structure provides. In fact, we are 
currently conducting a Commandant of the Marine Corps directed study of 
our force, termed Marine Corps Force 2025 to evaluate exactly what 
force structure the Marine Corps needs to fulfill its mission for the 
Nation in the future. I look forward to discussing that initiative with 
you in more detail.
    While the Marine Corps is postured to conduct operations across the 
range of military operations, our highest priority modernization 
efforts are those associated with our core competencies: amphibious 
forcible entry and crisis response. These core competencies require 
continued development of our capabilities for surface and air ship-to-
shore movement, command and control from a seabase, operational reach, 
and Marine Expeditionary Units, Marine Expeditionary Brigades, and 
Special Purpose Marine Air-Ground Task Forces. Our high priority 
modernization programs have been protected at the expense of both lower 
priority modernization and infrastructure maintenance or development. 
Moreover, fiscal constraints and rapidly changing technology and our 
current acquisition processes prevent necessary and timely investment 
in critical capabilities such as: intelligence, surveillance, 
reconnaissance, cyber, electronic warfare, and information warfare. In 
the end, we must maintain the warfighting capacity to ensure that our 
combined arms Marine Expeditionary Forces are trained and equipped to 
meet an uncertain future.
    Furthermore, a return to BCA-level spending/full sequestration 
would further exacerbate institutional readiness imbalances. More 
tradeoffs would be made in acquisitions of needed equipment, essential 
training, living and work spaces, family support centers, and end 
strength to protect the Marine Corps' performance of its statutory 
obligations. Sequestration impacts on key modernization programs will 
have catastrophic effects on achieving desired capabilities to defeat 
emerging threats and will place an unacceptable burden on legacy 
programs such as the AAV (40 + years old) and the HMMWV (out of 
productions since 2012).
    Mr. Gibson. Is modernization of equipment, technology and 
infrastructure a replacement for force structure and does the current 
force structure allow for a modernized force that is capable of meeting 
major modern conventional threats, such as Russia, China, North Korea, 
and Iran? Additionally, to clarify, in the modern era is it appropriate 
to no longer size the United States Land Forces ``to conduct large-
scale, prolonged stability operations'' as mentioned in the 2012 
Defense Strategic Guidance, and instead rely solely on modernization 
and readiness to achieve and maintain peace, assure our allies and 
partners, and respond decisively to global threats and crises?
    General Murray. No, modernization is not a replacement for force 
structure. The Army requires both capacity (force structure) and 
capability (modernization) in the correct balance to meet current 
strategic guidance, maintain a technological edge over adversaries, and 
prepare for future threats. Reduced funding has forced the Army to 
reduce manpower to prevent a hollow force and the 980,000 force is the 
minimally adequate force required to meet modern conventional threats, 
but with significant military risk. In the modern era, we can no longer 
substitute mass for modernization.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. COOK
    Mr. Cook. Why do the Army and the Marine Corps use two separate 
types of 5.56mm ammunition. What service specific requirement makes 
both types essential? How much would we save by only procuring one 
type?
    General Walsh. The Marine Corps is fully integrated with the US 
Army and agrees on the value in procuring a common 5.56mm ammunition. 
We are committed to working with our Army partners on this issue.
    The Special Operations Command (SOCOM) and US Army have each 
developed an enhanced round that is ``blind to barriers'' and has 
better accuracy and terminal ballistics than the current M855 round. 
The Army's M855A1 Enhanced Performance Round (EPR) and SOCOM's MK318 
Mod 1 Special Operations Science and Technology (SOST) round both 
provide improved performance over the current M855 5.56 mm round in a 
lead free form factor.
    Due to concerns with increased wear and degradation of weapons 
performance with the sustained use of M855A1, the Army (with USMC 
participation) began a series of tests in July 2014 to determine root 
cause of increased degradation of the weapons being used. Through these 
tests, the USMC determined that the Mk318 Mod 1 ammunition is more 
reliable and does not cause undue wear on our weapons, as a result the 
Marine Corps chose to procure this round as an interim solution for 
improved performance during contingency operations.
    Results of the most recent testing lend credibility to the premise 
that the increased pressure associated with the M855A1 ammunition is 
reducing the reliability and longevity of weapons systems, especially 
in the M4 series of weapons. Weapons reliability issues (e.g., gas ring 
erosion and breakage, bolt locking lug cracks, and barrel erosion) have 
increased along with a drop in accuracy due to barrel erosion.
    Marine Corps Systems Command asked Aberdeen Test Center to conduct 
additional reliability and durability testing on our M16A4, M4, M4A1, 
and M27 rifles with both MK318 Mod 0 and M855A1 ammunition. The purpose 
is to provide for side by side comparison of the effects the two 
ammunition types have on our weapons. The testing procedures for USMC 
weapons will be identical to the Army's continued testing of M855A1 
through their M4A1 and will, at times, occur simultaneously. The test 
of Marine Corps weapons and the test of Army weapons are separate 
evolutions; the test data will, however, be shared between services. 
Representatives from Marine Corps Systems Command and the Marine Corps 
Operational Test and Evaluation Activity will witness the Army's 
testing. The Army intends to begin testing in March and to be complete 
by the end of the 1st Qtr FY 17. An interim test report is expected at 
the beginning of 1st Qtr FY17 with the final test report expected by 
the end of the 2nd Qtr.
    There is National Defense Authorization Act language that requires 
a federally funded research and development center to conduct a study 
on the use of different types of enhanced 5.56mm ammunition. The OSD 
study is ongoing and is expected to be completed in 3rd Quarter, FY16. 
Within 150 days of the enactment of the Act, OSD will submit a report 
on the following:
    <bullet>  An explanation of the reasons for the Army and the Marine 
Corps to use in combat two different types of enhanced 5.56mm 
ammunition.
    <bullet>  An explanation of the appropriateness, effectiveness, and 
suitability issues that may arise from the use of such different types 
of ammunition.
    <bullet>  An explanation of any additional costs that have resulted 
from the use of such different types of ammunition.
        <bullet> Cost of additional magazines
        <bullet> Testing
        <bullet> Early destruction of weapons
        <bullet> New gages needed for M855A1
    <bullet>  An explanation of any future plans of the Army or the 
Marine Corps to eventually transition to using in combat one standard 
type of enhanced 5.56mm ammunition.
    Specific figures on overall savings as a result of procuring a 
single type of ammunition are not yet available, because that contract 
would have to be negotiated for a full joint service purchase, although 
the increased volume would likely generate savings. It should be noted 
that the business case remains only one part of the overall analysis. 
The variables of greatest importance remain achieving common ammunition 
to facilitate training and operational interoperability between the two 
services with a round that provides both acceptable reliability and 
improved performance.
    Mr. Cook. Why are we not considering 30mm cannons for Bradleys and 
LAVs the way we intend to place them on Strykers. Does the Bradley have 
sufficient lethality on its own to defeat its peer adversaries?
    General Walsh. The Marine Corps maintains close coordination with 
U.S. Army programs to improve the lethality of its Stryker Infantry 
Carrier Vehicle (ICV). Our Light Armored Reconnaissance formations are 
equipped with the LAV-25 and supporting mission role variants (MRV). 
Unlike the Striker ICV, which is equipped with a heavy machine gun or 
automatic grenade launcher in a remote weapons station (RWS), the LAV-
25 is equipped with the M242 25mm automatic cannon in a manned turret.
    The Marine Corps is currently upgrading its M242 systems to the 
enhanced configuration mounted in the Army's Bradley Fighting Vehicle. 
This upgrade will enable LAV-25 crews to fire depleted uranium (DU) 
ammunition. The capability of firing DU combined with fire control 
system improvements constitute a significant increase in LAV-25 
lethality and serve to further extend the effectiveness of the system 
well into the 2020's. Due to the swimming requirements and overall 
weight of the vehicle to include the weight a full upload of 30mm 
ammunition the Marine Corps feels that the DU upgrade to the 25mm 
cannon is the most balanced and effective means to increase lethality.
    Further, LAV-25s do not fight alone, but rather as part of a family 
of vehicles; MRVs enable critical supporting capabilities. The LAV-
Antitank (LAV-AT) provides heavy anti-armor and anti-material fires. 
LAR formation lethality is being further improved by the fielding of a 
modern TOW missile launcher mounted in an RWS on the LAV-AT. The 
upgraded LAV-AT will be capable of firing advance generation anti-armor 
and anti-materiel TOW munitions. These improved systems are in 
production and will begin fielding in 2017.
    Additionally, our LAV-Command & Control (LAV-C2) systems were 
upgraded with modern C2 suites in the last decade and are currently 
undergoing hardware and software technical refresh. The LAV-C2 carries 
a fire support team capable of coordinating and directing surface and 
air delivered fires as well as directing the organic fires delivered by 
LAV-Mortar MRVs.
    As the Army fields improved lethality systems in its SBCT and ABCT 
formations, normalizing new weapons and ground ammunition types, the 
Marine Corps will continue to closely monitor their progress, exploit 
joint opportunities to improve our capabilities, and work to ensure the 
continued operational effectiveness of our LAV equipped formations.
    Mr. Cook. Why do the Army and the Marine Corps use two separate 
types of 5.56mm ammunition. What service specific requirement makes 
both types essential? How much would we save by only procuring one 
type?
    General Murray. The Army uses the M855A1 Enhanced Performance Round 
(EPR) while the USMC continues to use the M855 Ball round for training 
and the 5.56mm Mk318 (also known as Special Operations Science and 
Technology (SOST)) round for war reserve. The Army initiated 
development of the M855A1 5.56mm EPR to address inconsistent 
performance of the M855 Ball while removing lead from the projectile. 
The resulting general purpose M855A1 EPR provides consistent 
probability of incapacitation, improved behind-barrier effects and a 
higher probability of hit; thereby ensuring the Warfighter retains a 
tactical advantage. US Air Force, US Coast Guard, as well as 
contingents within USSOCOM are using the M855A1 EPR. The Army has 
offered the M855A1 EPR to all Services, including the USMC, USSOCOM, 
and JSOC. The Army has provided and shared supporting test reports, 
including those from qualification, live fire test evaluation, and 
weapons reliability, as well as the overwhelmingly positive feedback on 
the performance of EPR in combat reports. In accordance with Section 
163 of the 2016 National Defense Authorization Act, the Office of the 
Secretary of Defense (OSD) has contracted with a Federally Funded 
Research and Development Center to conduct a study regarding the use of 
different types of enhanced 5.56mm ammunition by the Army and the 
Marine Corps.
    Mr. Cook. Why are we not considering 30mm cannons for Bradleys and 
LAVs the way we intend to place them on Strykers. Does the Bradley have 
sufficient lethality on its own to defeat its peer adversaries?
    General Murray. The Army does not have a requirement to increase 
the armament on the Bradley Fighting Vehicle (BFV). The BFV can defeat 
peer adversaries and main battle tanks through the use of the 25mm and 
Tube-launched Optically-tracked Wire-guided missile systems.
    Mr. Cook. I understand that the Army's Tank Automotive Research, 
Development and Engineering Center (TARDEC) recognizes Active Blast 
Mitigation as a valuable technology to enhance occupant survivability 
during IED events, and that TARDEC recently identified an active 
underbody threat protection solution, ABDS Sentinel, as having achieved 
TRL-6. Has the Army identified key contemporary platforms for an 
integration demonstration of this blast mitigation technology? What 
plans does the Army currently have to pursue this integration and 
demonstration work on contemporary vehicles? How does active blast 
mitigation technology fit into the Army's future modernization efforts?
    General Murray. Based on limited testing, the incorporation of 
active blast mitigation technology, such as ABDSTM, could reduce 
occupant injuries, reduce the forces and damage to other vehicle 
technologies, and may avoid costly retrofits to the legacy vehicle 
fleet when upgrading to meet increasing blast threats. The technology 
could also be utilized to reduce the integration burden on other blast 
mitigating components such as energy absorbing seating systems and 
sensitive electronics.
    While the Army is encouraged by the promising results of this 
limited testing, the technology has not yet reached a sufficient 
maturity level to develop specific plans for procurement. Additional 
research and testing is still required to incorporate this technology 
into Army ground vehicles. Moreover, the effort did not evaluate 
additional requirements for engineering and integration activities that 
might be necessary to enable incorporation on various vehicles, 
including the conditions necessary to account for the higher weight and 
design differences of ground combat vehicles. It is important that the 
Army has a clear understanding of system procurement, integration, and 
sustainment costs to inform any acquisition decision.
    While the Army has no funding for this technology within the Fiscal 
Year Defense Programming for 2017-2021, we will continue to evaluate 
the technology's cost and maturity should a warfighter requirement 
arise to drive insertion into a vehicle program in the future.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. Given the growing operational demand in multiple 
theaters for U.S. electronic warfare capability, does this necessitate 
additional electronic warfare countermeasure purchases beyond the 
amount requested in the President's budget?
    General Williamson. Electronic Warfare countermeasure purchases to 
date meet current Army-validated requirements in both quantity and 
capability. However, the Chief of Staff of the Army has also asked for 
$2.6 million within the Army unfunded requirement list to address 
emerging requirements for the Multifunction Electronic Warfare systems 
and an Electronic Attack capability. These capabilities are essential 
to future Electronic Warfare capabilities in any theater.
    Mrs. Walorski. Congress has expressed keen interest in empowering 
the services to streamline the requirements and budget process to 
further the rapid acquisition of electronic warfare capability. How 
great of a role does industry competition play in maintaining our 
technological edge in electronic warfare?
    General Williamson. For enduring capabilities that are not 
constrained by time a competitive industrial base plays a vital role in 
maintaining our technological edge in many areas, including electronic 
warfare. There is a robust industrial base to support rapid acquisition 
to select and acquire the most relevant capabilities to meet immediate 
warfighting needs for electronic warfare. Competition encourages and 
drives industry to be more creative, innovative, and cost effective. It 
promotes economic growth and the chances for industry to achieve more 
by seeking breakthrough technological advances and future opportunities 
and investments. It is this enduring competitive environment that will 
best support the rapid acquisition process when the need arises.
    Rapid acquisition also means meeting the warfighter's requirements 
and being available in the quantities and time needed. For critical and 
urgent warfighting needs, an expeditious non-competitive process is 
often best suited to deliver these time-sensitive capabilities to the 
warfighter. In order to achieve its purpose, rapid acquisition means 
quickly acquiring a capability that already exists, since there is 
little to no time for development. Title 10 U.S.C. 2304(c) authorizes, 
under certain conditions, contracting without providing for full and 
open competition. The sole source justification for the rapid 
acquisition of electronic warfare capabilities would be ``unusual and 
compelling urgency.'' That applies when a delay in award would result 
in serious injury, financial or other, to the government (Federal 
Acquisition Regulations 6.302-2).
    Mrs. Walorski. General Williamson, the Army's Combat Vehicle 
Modernization Strategy identified that the Army will not start a new 
Bradley replacement program until FY29 with likely fielding in the mid-
late 2030s. a. What is the Army's plan to address Bradley modernization 
for the next 10-20 years? b. Does the Army have any intention of 
modernizing the Bradley beyond the Engineering Change Proposals 
identified in the budget exhibits?
    General Williamson. The Army plans to address the Bradley program 
for the next 10-20 years through a combination of current Engineering 
Change Proposal (ECP) efforts and a robust modernization effort in the 
early 2020s.
    Current Bradley efforts include ECP1 (in production and fielding 
now), ECP2 (entering government test now), and ECP2b scheduled for 
development contract award in the fourth quarter of Fiscal Year 2016 
(FY16). ECP1 and ECP2 will address the size, weight, and power (SWAP) 
challenges created during Operation Iraqi Freedom. They will allow the 
Bradley to recover lost mobility performance and provide the capability 
to host the future Army Network. ECP2 will achieve First Unit Equipped 
(FUE) in FY20. ECP2b, in conjunction with Abrams, is integrating the 
3rd Generation Forward Looking Infrared sensors as well as other 
lethality, hit avoidance, and situational awareness capabilities. ECP2b 
will achieve FUE in FY25.
    Beyond the current ECPs, the Army anticipates a decision in the 
FY22 timeframe to determine whether to pursue additional ECP upgrades 
to the Bradley, and/or begin development of a Future Fighting Vehicle.
    Mrs. Walorski. During the Iraq War, the Army adapted to the growing 
threat of Improvised Explosive Devices (IED's) with a massive up-
armoring program for tactical vehicles like the HMMWV. There were also 
new vehicle designs like the various forms of the MRAP (Mine Resistant 
Ambush Protected) Vehicle. The HMMWV vehicle, while extremely capable, 
the frame and components were not originally designed to carry armor, 
and the addition of 2000 pounds of armor to the HMMWV created other 
issues, such as reducing service life, performance, and efficiency. 
Likewise, MRAPs are even heavier, and can have limited mobility and 
deploy-ability due to their weight and size. I understand the Army has 
done some testing with new materials and technology like Metal Matrix 
Composites to reduce the weight of components, while seeking to extend 
service life and reduce fuel consumption. I understand that some of the 
components tested have reduced component weight by nearly 50% while 
improving performance and extending the service life by three to four 
times that of steel components.
    a. Could you comment on the importance of this type of technology 
and is developing high performance light weighting technologies a 
priority for the Army? b. In what areas do you believe this could add 
the most value? c. What benefits would be gained if you could reduce 
the empty weight of a vehicle like an FMTV or JLTV by several hundred 
pounds, if there was no degradation to performance or protection 
systems?
    General Williamson. The development of light weighting technologies 
is important to the U.S. Army, but one that must be balanced with 
mission capability and affordability. In October 2014, the U.S. Army 
Science and Technology community investigated and identified a set of 
processes, tools, technologies, and materials for vehicle light-
weighting and published the Lightweight Combat Vehicle Science and 
Technology Campaign (LCVSTC). The LCVSTC focused primarily on 
technologies that would enable material substitution approaches without 
changes in doctrine. Specifically, Metal Matrix Composite technologies 
are an important research area for the Army as they could provide 
significant weight reduction, longer life, and improved performance of 
components as well as allow for, in certain conditions, an increased 
payload.
    Assessing the value of applying a material substitution (e.g. a 
Metal Matrix Composite) on an existing or future military platform 
would require a detailed engineering analysis of the specific 
platform--taking a system-level perspective to examine the weight 
reduction potential in all subsystems and components across an entire 
platform. Absent such a system level analysis, attempts to achieve 
light weighting may be sub-optimized in terms of lifecycle cost, 
performance, and overall weight savings. Currently Aluminum Metal 
Matrix Composites have shown to be most useful in the area of brake 
drum technologies. This technology offers lower operating temperatures 
compared to cast iron brake drums as well as decreased wear on the drum 
itself, reducing the life cycle cost by providing for longer lasting 
brake drums/shoes. Quantifying the full range of operational benefits 
of weight reduction is complex and is an area of on-going research at 
the Tank Automotive Research, Development and Engineering Center. 
Beyond the direct effect of increasing payload capacity for a tactical 
vehicle second order benefits of light weighting are expected to be 
realized in operational energy effectiveness, air transportability/
expeditionary operations, route access, reliability, and operation and 
maintenance costs.
    Mrs. Walorski. Over the past several budgets, the Army has 
requested funds in the Bradley modernization budget line for conversion 
of M3A3 Bradley Calvary fighting vehicles into M2A2 Bradley Infantry 
fighting vehicles. There is no request for this work in the FY17 
budget.
    a. Wouldn't continuing this conversion program lend itself to the 
objectives the Army is supporting in the European Reassurance 
Initiative?
    General Williamson and General Murray. The funding provided through 
Fiscal Year 2016 allowed the Army to mitigate the risk to the Bradley 
industrial base, leaving an acceptable six to eight month gap before 
Bradley Engineering Change Proposal 2 production starts. The remaining 
M3 Bradleys will be converted to an M2 variant through a future, more 
cost effective, conversion program that will be applied in field 
locations. This conversion effort is not part of the European 
Reassurance Initiative. This effort converts Calvary versions of the 
Bradley into Infantry fighting versions by removing some of the 
ammunition storage capacity and increasing the seating capacity.

                                  [all]
</pre></body></html>
